Department of Health and Human Setices
        OFFICE OF
   INSPECTOR GENERAL




           AN OVER~W




                DECE~ER   1992
                                         —
                     OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries sexved by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semites, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Boston regional
office under the direction of Mark R. Yessian, Ph.D., Regional Inspector General, and Martha
B. Kvaal, Deputy Regional Inspector General. Project staffi



Dana L. Miller, Projecr Leader                      Maruta Zitans
Timothy J. Corbett                                  Barbara Tedesco
Madelaine T. Tully
Deborah Skahan

 For additional copies of this repo~ please contact the Boston regional office at 617/565-1050.
Depatiment of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENERAL




           AN OVER~W
              EXECUTIVE                           SUMMARY
PURPOSE

This report describes recent trends in the perinatal service capacity of the community
health centers funded under Section 330 of the Public Health Service Act.

BACKGROUND

Community health centers (CHCS) play an important role in reducing infant mortality
by delivering comprehensive perinatal care to high-risk women in medically undersexed
areas across the nation. Many of these women are difficult to reach and do not
appreciate the importance of prenatal care. In 1991, the Federal government supported
services at 514 CHCS through Public Health Service (PHS) Section-330 grants, PHS
Section-329 and -340 grants for migrant workers and the homeless, Medicare and
Medicaid reimbursements, Maternal and Child Health grants, and the National Health
Service Corps.

In recent years the Federal government has made an increasing investment in the
centers. Little information is available, however, on the extent to which the centers are
able to meet the perinatal care needs of the women they serve. To examine the capacity
of the centers to provide perinatal care, we conducted a mail sumey of all CHCS;
inte~iewed center staff and management; held discussions with PHS administrators, State
officials, and infant health care experts; and reviewed relevant literature and data. Our
sumey was completed in June 1991. our findings are based primarily on information
reported by the centers to us and to PHS.

 FINDINGS

 Increased Capacity The capacity of the community health centers to provide perinatal
 care increased in several respects between 1988 and 1990:

  �     Prenatal caseloads increased an average of 22 percent.

  �     The range of medical and health promotional services increased at 68 percent of
        the centers. The services added at the largest number of centers were HIV
        testing and counseling, smoking-cessation programs, and classes in parenting and
        childbirth.

   F    The range of ancillary services--such as home visiting and transportation--increased
        at 32 percent of the centers.

   F    Total center revenues increased 27 percent.




                                              i
Increased Demand: Despite these increases in capacity, demand for perinatal services
has continued to grow, and many center clients still do not receive the optimal
coordinated package of care in a timely fashion.

      Fourteen percent of the centers reported that they provided no perinatal services
      on site between 1988 and 1991. Our study did not examine the extent to which
      these centers made alternative perinatal care arrangements for their clients.

       Demand for services increased at 82 percent of the centers; 39 percent of these
       centers reported their capacity to meet this growing demand either decreased or
       remained the same.

       Many centers reported that they do not coordinate, as part of their perinatal
       case-management efforts, all of the health and social services recommended by the
       Public Health Semite. This may, in part, reflect variations in the definition of
       “case management” among centers.

       On average, 55 percent of each center’s prenatal clients entered care during the
       first trimester in 1990. Nationally, 76 percent of all women, 62 percent of minority
       women, and 58 percent of women in Healthy Start project areas entered care
       during the first trimester.

       On average, 21 percent of each center’s first-trimester enrollees received fewer
       than 9 prenatal visits. Our study did not examine the extent to which these
       patients may have received care elsewhere.

Limitations to Care: Centers identified several major constraints that seriously limit their
capacity to provide perinatal care. Among these are:

       _          Medical staff shortages, in part as a result of cuts in the National Health
       Setice Corps in the 1980’s, present serious problems at 63 percent of centers.
       Although the number of prenatal clients increased an average of 22 percent at the
       centers, the number of obstetricians, family physicians, and certified nurse
       midwives increased an average of 5 percent.

       Medical Mahxwtice Lnsurance. The high cost of medical malpractice insurance
       has been a serious problem at 56 percent of centers. In late 1992, Congress took
       initial steps to address this problem by passing legislation (P.L. 102-501) that
       extends medical malpractice liability protection under the Federal Tort Claims Act
       (ITCA) to health care providers at the centers.

        Communiw-Provider Relations. Seventy-six percent of the centers report serious
        problems stemming from inadequate coordination of perinatal services in the
        community, a lack of other local providers willing to treat uninsured and




                                             ii
      publicly insured women, difficulty arranging obstetric backup for center staff and
      for consultation for high-risk clients, or difficulty obtaining hospital privileges for
      center staff.

      Health Insurance. On average, 19 percent of each center’s perinatal clients were
      uninsured in 1990. At 9 percent of centers, more than half of the perinatal clients
      were uninsured.

Medicaid Funding:   Medicaid is an important source of revenue for the centers’ perinatal
semices.

      On average, 67 percent of each center’s perinatal clients were enrolled in
      Medicaid in 1990.

      Medicaid reimbursements to centers increased, as a percentage of total revenues,
      from approximately 17 percent in 1988 to 21 percent in 1990.

      Nonetheless, 73 percent of the centers reported serious problems with Medicaid-­
      burdensome application procedures, inadequate and/or slow reimbursement,
      restrictive eligibility criteria, or a limited range of covered services.

      Only 56 percent of centers reported that they offered on-site assistance with
      enrollment in Medicaid, even though recent Federal law required that the States
      outstation workers to do so.

       Only 27 States and the District of Columbia had begun to implement cost-based
       reimbursement to the CHCS by May 1991, as called for in the Federally Qualified
       Health Centers mandate.

Comprehensive Perinatal Care Program (CPCP): The CPCP provided supplemental
funds for enhanced perinatal services to approximately two-thirds of the centers for at
least one year between 1988 and 1991.

  �    Eighty percent of centers that received CPCP funds expanded their range of
       perinatal services between 1988 and 1990, compared with 50 percent of other
       centers.

  �    A larger percentage of CPCP grant recipients than of other centers coordinate all
       of the PHS-recommended health and social services through their perinatal case-
       management efforts.

  �    Responses to our survey indicated no significant differences between CPCP grant
       recipients and other centers in the percentage of clients who entered care in the
       first trimester in 1990. We did not gather information on changes over time in
       first-trimester enrollment.



                                              ...
                                              111
 �       Responses to our survey indicated no significant differences between CPCP grant
         recipients and other centers in the percentage of first-trimester enrollees who
         received at least nine prenatal visits in 1988 or 1990.

Urban-Rural Comparisons: Between 1988 and 1990, the capacity of urban and rural
centers to provide perinatal care increased in terms of prenatal caseload size, the range
of services offered, and overall revenues. The increases were greater for urban centers
than for rural centers.

 *       A greater percentage of rural centers (20 percent) than urban centers (6 percent)
         offered no perinatal services on site between 1988 and 1991. Our study did not
         examine the extent to which these centers made alternative perinatal care
         arrangements for their clients. Rural centers with perinatal programs offered
         more timely care than urban centers.

  >      Urban and rural centers identified the same factors as serious limitations to their
         ability to provide perinatal care. Limited space was a problem for a greater
         percentage of urban centers, and staff shortages were a problem for a greater
         percentage of rural centers.

KEY AREAS FOR ACIION

In recent years, government at all levels has looked to the CHCS to play a more
prominent role in providing perinatal care to poor, high-risk women. As the data in this
report suggest, the capacity of centers to provide perinatal services has increased in
several important respects since 1988. More women are being served and a wider range
of services is being offered. Many centers, however, are burdened by major problems
that limit their ability to meet the heightened expectations they face. The problems are
pervasive and suggest vulnerabilities that cannot be effectively addressed by the centers
alone.

In part, the difficulties facing centers reflect problems of access and cost in the nation’s
health care system and are dependent for resolution on broad reforms in that system.
Nonetheless, there are important actions policy makers can take now to strengthen the
capacity of centers to provide care. The data in this report suggest four critical areas
that warrant immediate attention. Policy makers at all levels of government--Federal,
State, and local--need to:

     E  Address the staffing needs of the centers. If community health centers are to
meet the increasing demand for services, they need to be better able to attract, retain,
and utilize clinicians. Thus, it is vital to identify cost-effective steps to (1) ensure an
adequate supply of clinicians, (2) develop more effective incentives for clinicians trained
with public funds to locate in undersexed areas, and (3) ease undue restrictions on the
credentialing of certified nurse midwives, nurse practitioners, and physician assistants.




                                              iv
 �      Assure that recent legislation effectively relieves the centers of the high cost of
medical malpractice insurance. The high cost of malpractice insurance, particularly for
clinicians providing perinata] care, has limited the centers’ ability to offer services. In
late 1992, Congress took initial steps to address this problem by extending medical
malpractice liability protection under the Federal Tort Claims Act (ITCA) to health care
providers at the centers. It is necessary to monitor this new arrangement to ensure that
it effectively addresses the centers’ concerns.

 �      Continue to imprwe ties between the centers and the Medicaid program. An
effective link between centers and the Medicaid program is vital given the high
proportion of Medicaid-insured women served by the centers and the expanded
Medicaid coverage now available for their prenatal care. It is particularly crucial to
ensure that the law requiring outstationing of Medicaid eligibility workers at CHCS
and the law ensuring cost-based reimbursement to centers as Federally Qualified
Health Centers (FQHC) are both fully implemented and working optimally.

       Continue to strengthen relationships with other health and social seMce
p~oviders. To be more comprehensive and efficient, the perinatal services offered by
centers must be more effectively linked with those of other providers in the
community. It is particularly important to increase the number of providers willing to
serve Medicaid patients, to simpli~ enrollment, to facilitate referrals among programs,
and to ensure that center clinicians have staff privileges at hospitals in their
communities.

RECOMMENDATION

The Assistant Secretary for Health the Administrator of the Health Care Financing
Administratio~ and the Assistant Secretary for Planning and Evaluation should
develop a plan of action to address the key areas outlined above.

The PHS and HCFA should, individually and collaboratively, develop plans of action
that incorporate specific targets and concrete steps to ensure that the key areas for
action are addressed. The ASPE should review these plans and assure that they are
compatible and adequate to meet the nation’s health goals for the year 2000 to reduce
infant mortality rates and increase access to perinatal care. The ASPE should
coordinate activities and monitor implementation of the plans.

The PHS cannot effectively address these problems alone. Other Departmental
components, State and local government agencies, and nongovernmental organizations
must be involved in planning and implementation. of particular importance is
cooperation between public health and health care financing agencies at both the
Federal and State levels.

 Only through concerted action to address the key problem areas identified above can
 the potential for the community health centers be more fully realized. Strategies for
 improving perinatal care, such as expanded insurance coverage and aggressive


                                             v
outreach programs, will be successful only to the extent that centers can provide
sufficient clinical services linked effectively with other health and social semtices.
Unless the serious problems affecting the community health center system are
addressed, the centers’ capacity to meet increased demand and heightened
government expectations will continue to be strained and the system will remain
vulnerable.

COMMENTS        ON THE DRAFT’ REPORT

We received formal comments on our draft report from the Public Health Sewice
(PHS), the Office of the Assistant Secretary for Planning and Evaluation (ASPE), and
the Health Care Financing Administration (HCFA). These comments are reproduced
in appendix C.

The PHS and ASPE concurred with our recommendation and proposed steps to
implement it. The HCFA did not concur with our recommendation.         The HCFA
suggested that the key areas for action we identified are being addressed by current
efforts in the Department and that the implementation of our recommendation could
result in a duplication or delay of these ongoing efforts.

We continue to believe that the development and implementation of an interagency
action plan by PHS, ASPE, and HCFA is critical to the strengthening of the
community health centers’ perinatal care capacity. The participation of HCF& which
plays a vital role in support of the community health centers’ provision of perinatal
care, is important to this effort.

We recognize that PHS, ASPE, and HCFA are involved in ongoing initiatives that
address concerns about infant mortality and perinatal care. We urge PHS, ASPE, and
HCFA to consider these current activities as resources upon which to draw in
developing a comprehensive plan that incorporates both specific targets and concrete
steps to ensure that the key areas for action are addressed. We hope the interagency
effort will provide an opportunity to further involve State and local policy makers in a
concerted plan to support the centers’ provision of perinatal care.

 We have revised our draft reports to reflect additional comments we received from
 PHS, ASPE, and HCFA.




                                               vi
                    TABLE                    OF CONTENTS


EXE~            SU19WY

                                                                                                                           1

INTRODUmION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



FINDINGS

                                                                                                                   4

   Increased Capaci~  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                 .5

   Increased Demand . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                    7

   Limitations to Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                    9

    Medicaid Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                   10

    Comprehensive Perinatal Care Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                              ..11

    Urban-Rural Comparisons . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                                                                                                            16

 K_FYAR~FOR                A~ON           ...,,...       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                                                                                                           . 17

 RE~MME~A~ON                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



  ~MME~ONTHED~~PORT                                             . . . . . . . . . . . . . . . . . . . . . . . . . . ...18


  APPENDI=
                                                                                                                            A-1

       A: Methodology          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                          . B-1

       B: Survey Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                            c-1

       c:   Detailed Cc>mments on the Draft Report                         .......................
                                                                                                                        . . D-1

       D: Notes        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .





                                                              vii
                         INTRODUCTION

PURPOSE

This report describes recent trends in the perinatal service capacity of the community
health centers funded under Section 330 of the Public Health Service Act.

BACKGROUND

Birth Outcomes in the United States: The high rate of infant mortality in the United
States continues to be a cause for concern. Each year, approximately 40,000 infants
die before their first birthday--about 1 percent of all live births in the nation. In the
1950’s, the U.S. ranked 5th among the world’s nations in lowest infant mortality; in
1991, it ranked 23rd. The rate for black infants continues to be double that for white
infants. ]

Perinatal Care: A pregnant woman with no prenatal cm-e is three times more likely to
have a baby born at low birthweight--a key indicator of the risk of infant death--than a
woman with adequate care. The Public Health Service (PHS) recommends timely,
high-quality care before, during, and after birth as an effective way to lower the infant
mortality rate and ensure healthier infants. Such perinatal care’ should include early
and continuing risk assessment; health promotion; and medical, nutritional, and
psychosocial intementions and follow-up.2

Several factors, however--including financial, geographic, and cultural barriers--prevent
many women from obtaining timely perinatal care.3 Rising medical malpractice
insurance costs, inadequate health insurance coverage, a decreasing supply of obstetric
providers, and a lack of physicians willing to treat low-income women are among the
factors that have further limited the accessibility of perinatal care.4 In 1989, almost
 170,000 American women received no prenatal care until the third trimester, and
another 86,000 received no care at all during pregnancy. Thirteen percent of whites
received inadequate care; the proportion of blacks and Hispanics is twice that.5

Community Health Centers: Community health centers (CHCS) play an important
role in reducing infi~nt mortality by delivering comprehensive perinatal care to high-
risk women in medically undersexed areas across the nation. Many of these women
are difficult to reach and do not appreciate the importance of prenatal care.

 The CHC program was established in 1965 to meet the health care needs of the
 nation’s medically undeserved.   Federal administration of the program was
 consolidated in 1975 under Section 330 of the Public Health Semite Act. The total
 number of centers, however, has not been maintained at the level originally
 envisioned.6 The number of grantees was cut substantially in the early 1980’s--from
 867 in 1981 to 530 in 1983, a 39 percent decrease.’ At the time of our survey, in


                                              1
1991, PHSfunded 514centers; 60 percent of these sened predominantly rural
populations, and 40 percent served predominantly urban populations.8 As of
December 1992, PHS funded 549 centers.

The Federal government supports the services provided by community health centers
through PHS Section-330 grants as well as through Medicare and Medicaid
reimbursements, Maternal and Child Health grants, PHS Section 329 and 340 grants
for migrant workers and the homeless, the National Health Service COrpS,9 the
Supplemental Food Program for Women, Infants, and Children (WIC),10 and the
                            11 r

                                               ‘ ‘--­              ill~~lfl[[~~[~~gg~h:
yiMitiij6fffq  L8t                                                        rime
~-r wI~Ls3US  MOL~~.. 9LIqZUGP0W=JCe2-   IUC
                                                .
                                                    T----–
                                                      –=--   4.3
                                                                     Mu ~w
                                                                    ~Llq
                                                                            #
                                                                           ~Jlrrrnrfi..   {   . . –   . .


for migrant workers and the homeless, the NZIWMZH    ~~iii~fi”;=;t }=%’=21~-~1’~‘w=
Supplemental Food Program for Women, Infants, and Children (WIC),1° and the
Rural Health Clinic Programll. In recent years, funding for the centers has
increased,12 and several initiatives have been implemented to expand center services
and imrmwe access to care. These include:

Medicaid Expansions: Since 1982, Congress has enacted several changes in the
Medicaid program, including mandated and optional changes in eligibility requirements
and other measures, intended to improve the availability of perinatal care.13

Federally Qualified Health Centen Legklation: The Omnibus Budget Reconciliation
Acts of 1989 and 1990 require State Medicaid programs to cover a core set of services
provided by community health centers and to reimburse centers for the reasonable
cost of covered services.

The Comprehensive Perinatal Care Program (CPCP): The CPCP provides
supplemental funding to some CHCS for enhanced perinatal setices, including
improved outreach and case management. Funds were first awarded in 1989.14

Healthy Start: In September 1991, HHS awarded competitive grants to 15
communities in support of coordinated programs to reduce infant mortality rates.

Although there has been increasing Federal interest in perinatal care and the
community health centers, little information is available on the extent to which the
centers are able to address the perinatal care needs of the women they seine. A clear
understanding of the centers’ current capacity to provide perinatal care is vital to
further planning and program design.

 This report presents an ove~iew of recent trends in the perinatal service capacity of
 the Section-330-funded centers, and summarizes and compares data on urban and
 rural centers. It also presents information on two areas of special policy interest:
 Medicaid reimbursements to the centers, and CPCP funding of the centers.
COMPANION      REPORTS

This is one of three reports on the capacity of the community health centers to
provide perinatal care. Two companion reports address the provision of perinatal
services at urban and rural centers: 7%e Perinatal Service Capacity of the Federally
Funded Community Health Centem: Urban Centers, 0EI-01-90-02330, and Z4e
Perinatal Service Capacity of h Federally Funded Community Heahh Centem: Rural
Cen[en, OEI-01-90-0233 1.15

METHODO~Y

To examine the capacity of the community health centers to provide perinatal care, we
conducted a mail sumey of Section-330-funded centers, interviewed staff and
management at 10 centers; held discussions with PHS administrators, State officials,
and infant health care experts; and reviewed relevant literature and data.

We sent the mail suwey to all 514 community health centers receiving Section-330
funds in June 1991; of these, 431 (84 percent) responded. Our findings are based
primarily on the responses of those 369 centers (72 percent of all centers) that
reported that they offered perinatal services on site during the 1988-91 period. (See
appendix A for a detailed methodology.)

Our review was conducted in accordance with the Interim Slandards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3
                                            FINDINGS

INCREASED          CAPACITY:            7he capacity of the commundy health centem to pmide
peri.natal care increasd          between 1988 and 19X) in terms of prenatal casehad ~    the
range of services offm~            and jhiing.

  �   Caseloads:         The number of prenatal clients served by the centers rose 22 percent
between 1988 and 1990, from an average of 359 per center to 436. The number of
births to center clients rose 19 percent during the same period, from an average of
253 per center to 300. Centers reported a total of 140,157 prenatal clients and 88,142
births in 1990.

  E Setices:    The range of perinatal services increased at 68 percent of the centers.
The services added at the largest number of centers were HIV counseling and testing,
smoking-cessation programs, and classes in parenting and childbirth. 16 The range of
ancillary services increased at 32 percent of the centers. Home-visiting services were
added at the largest percentage of the centers and child care during appointments was
added at the smallest percentage (see figure 1).

                                               Figure 1
                                 Percentage of Centers that Provided
                          Each Perinatal Service, Including Ancillary Services
                              Either On Site or Off Site, 1988 and 1990
                                     F~9



                   .	8
                    E

                   :
                   i!
                   2




                                     T~
                       ti’ -~                                                   •1
                                                                                     1988
                   3u
                                                                                m    addedby 1990
                   2 -   -           Child Care
                                        !           1            I          1          1
                      o%              20%         40%           60%       80%        100%
                                  Percentageof Centers ProvidingEach Senrice
                                Source:OIGSurvey of Comnmnity Health Centers, June 1991.
                                                        N-369




                                                           4

Sixty-five percent of the centers offered on-site assistance with enrollment in the
Supplemental Food Program for Women, Infants, and Children (WIC) in 1990, an
increase from 57 percent in 1988.17

  �  Revenues: Total revenues for all center services increased 27 percent between
1988 and 1990; this includes an 18 percent increase in Section-330-grant funding.18
Fifty percent of the centers reported that the amount of funding available for perinatal
senices had increased since 1988.


INCREASED       DEMAND:       Despite these increases in capacity, demand for perinatal
services has continued to grew, and many center clients still do not receive the optimal
coordinate package of care in a timely filshion

  �  Availability of setices: Sixty-two (14 percent) of the centers that responded to
our survey provided no perinatal setices on site from 1988 to 1991.19 While these
centers are required to ensure that clients receive services elsewhere, our study did not
examine the extent to which centers did so. Twenty-nine (47 percent) of the centers
that did not provide on-site perinatal semices indicated that they would have liked to,
but noted that budgetary constraints, a lack of obstetric providers, and an inability to
obtain hospital privileges prevented them from doing so.

  �  Demand for services: Eighty-two percent of the centers that offered perinatal
care reported an increase in the demand for sewices since 1988. Of these, 39 percent
reported that their capacity to address this demand had either decreased or remained
the same. An additional 12 percent of the centers reported that demand for perinatal
semices had not changed since 1988. Of these, 17 percent reported that capacity to
meet demand had decreased.

Several centers reported that they were overwhelmed by demand and have been
periodically forced to turn away new perinatal clients because they lack the capacity to
seine them. Centers attributed increased demand for services to several factors,
including: Medicaid eligibility expansions, and presumptive and continuous eligibility
provisions; a diminishing number of community providers willing to treat low-income
and Medicaid patients; and increasing unemployment rates among center clients.
Many unemployed women have neither the income nor the health insurance to afford
private medical care, and therefore seek subsidized care at the centers.

  �  Case management: According to PHS, perinatal care should include risk
assessment; health promotion; and medical, nutritional, and psychosocial services and
follow-up.20 To maximize the accessibility, quality, and comprehensiveness of services,
PHS requires centers to provide case-management services.21

Although centers may provide some of the senices recommended by PHS, 63 percent
of the centers reported that they do not provide case management for all of these
sewices (see figure 2).


                                              5
                                  Figure 2
          Percentage of Centers that DO NOT Case Manage Each Perinatal SeMce
                  m~titi                          13%
                 Health E&carion -~                14%
               Nutritional Services -~              15%
              ASSiStmcc
                      withWC
         Medical Semites On-Sit.c
         Medical Services Off-Site -1                         2s%
           Social Saivcesi On-Site i                                31%
           social Services Off-Site -I                               34%
                 Delivery Se$v&g -I                                  34%
               Discharge Planning                                                 so%
                                                                                         ,
                                   o%       10%                30%        40%   so%     60%
                                   Percentage of Centers th    DO NOT Case Manage Each Service

                                  !kunx. 010SUIVCy
                                                ofcommunity
                                                         Healthcenm         he 1991.
                                                        N-369


There is no commonly accepted definition of case management, and the process has
been implemented differently at different centers. Centers might coordinate the
delivery of semices and not refer to such coordination as case management.

Centers reported several problems, however, that indicate inadequate coordination of
care:

  o	   Missed appointments are not rescheduled for an average of 35 percent of each
       center’s perinatal clients.
  o	   The timely transfer of medical records to and from facilities for delivery and
       other semices is a problem at 27 percent of the centers.
  o	   Follow-up care within the first 8 weeks after birth was not provided for an
       average of 27 percent of each center’s prenatal clients in 1990.

  �   Timing of care: On average, 55 percent of each center’s prenatal clients entered
care during the first trimester of pregnancy in 1990. Nationally, 76 percent of all
women, 62 percent of minority women, and 58 percent of women in federally
designated Healthy Start project areas entered care during the first trimester.zz
These rates compare with a PHS goal of 90 percent of all women by the year 2000.X

   �    Number of visits: The American College of Obstetricians and Gynecologists
recommends that women entering care in the first trimester receive a minimum of 9
prenatal visits.24 On average, however, 21 percent of each center’s first-trimester
enrollees received fewer than 9 prenatal visits at the center. Our study did not
examine the extent to which these patients may have received care elsewhere.




                                                      6

   �    Availability of appointments: Thirty-seven percent of thecenters did not offer
prenatal appointmentsat     times convenient forworking women in 1990. Restricted
appointment hours may force working women to choose between work and prenatal
care.

  �    Waiting times: At 27 percent of the centers, waits for initial prenatal visits are
2 to 4 weeks; at 4 percent, waits are more than 1 month. Long waits for initial
appointments can have adverse effec~s. If a woman tests positive for pregnancy in her
second month and then must wait 4 weeks for her first prenatal appointment, she may
enter care in her second trimester. The implications of such waits are even more
problematic when pregnancy is detected later and when the mother is at high risk, as
many center clients are.

sixteen percent of the centers reported that office waiting times grew longer between
1988 and 1990. Centers reported that long office waits may discourage women from
making and keeping appointments.


LIMITATIONS TO CARE: 7% centem &&m@Zedseveral major constnints that
seriously limit their capacity to pmvkii? painatal care. 7kse inchuie medical staff
shortage+ medical malpractice insumnce cmtis, unsatii$actq     community suppo~ kited
spacq and inadequate
             “           health insumnce of center clientk

  �  Medical staff shortages: Medical staff shortages are so severe that they
seriousl~ hinder the provision of perinatal sexvices at 63 percent of the centers.
While the number of perinatal clients served by the centers increased an average of
22 percent between 1988 and 1990, the number of full-time equivalent (FTE)
obstetricians, family physicians, and certified nurse midwives increased an average of 5
percent. Twenty-six percent of the centers reported that at least 1 obstetrician, family-
physician, or nurse-midwife position had been vacant for longer than 1 year (see table
1).

                                              Table 1
           Percentageof Centers Reporting at Least One C1.iniealProviderPmition Vacan#
                                                  Currently      Vacant more     Vacant more
                  Stafl Position                   Vacant     than SixMonths     than one year
   Obstetrician-Gynecologist                        26~o            22%              13%
II FamilyPhysician                             II 31% I             26fZo      I     15%       II
II Nurse Midwife                                  11      13%      I          1170     I   6%   II
                         Source: OIG Swvey of Community   HealthCenters,   June 1991
                                                 N=369


Centers face serious problems recruiting and retaining medical staff. The work is
demanding, and wages and benefits are generally not comparable to those in the
private sector. Although the National Health Service Corps used to supply a large


                                                    7
percentage ofcenter providers, funding forthecorps   was seriously cut in the 1980’s.
In recent years the corps has produced a decreasing number of providers.27

Obstetricians are in short SUpply, and many are unwilling to work in community health
centers. They are also the most expensive providers to support: Their salaries and
medical malpractice insurance premiums are substantially higher than those of other
providers. Family-physician and certified-nurse-midwife models of care also pose
problems: The supply of family physicians and nurse midwives is limited; many
obstetricians are reluctant to provide supervision and backup services for them; and
many hospitals will not extend delivery privileges to them. Thus, these more
affordable staffing models are impractical for many centers.

  �  Malpractice insurance costs: The cost of medical malpractice insurance has been
a serious drain on resources at 56 percent of the centers. The cost of medical
malpractice insurance has become a more serious limitation since 1988 at 27 percent
of the centers.n

These costs have made it difficult for centers to expand their staffs, since scarce funds
must be spent on insurance instead of salaries. Centers that contract for care have
had difficulty paying the rising wages necessary to meet the insurance costs of private
physicians. One center reported that it has been unable to obtain coverage at any
cost .

In late 1992, Congress took initial steps to address this problem by passing legislation
that extends medical malpractice liability protection under the Federal Tort Claims
Act (ITCA) to health care providers at the centers.29

  �    Unsatisfactory community support: The PHS expects that centers be “active
participants in their community’s health care system. . . . This typically means
fostering partnerships and participating in consortia and task forces addressing the
area’s health care issues.”~ These consortia should include local health departments,
social services departments, hospitals, and other public and private health care
providers. Thirty-five percent of the centers, however, do not participate in perinatal
care consortia.

Inadequate coordination of perinatal services in the community, insufficient support
from the local medical establishment, or limited hospital privileges31 seriously restrict
the provision of services at 76 percent of the centers. Unsatisfactory community
support is indicated by several problems cited as serious impediments to the delivery
of care:

       o    a lack of other local providers willing to treat uninsured and
            publicly-insured women (59 percent);
       0    difficulty arranging obstetric backup for family physicians, certified nurse
            midwives, or nurse practitioners (35 percent);
       0    difficulty arranging medical consultation for high-risk clients (29 percent);


                                              8
       o   difficulties obtaining admitting or delivery privileges for staff obstetricians,
           family physicians, or nurse midwives (35 percent); and
       o   a decrease between 1988 and 1990 in the percentage of staff providers with
           hospital admitting privileges (19 percent).

  �   Mted     space: Limited space seriously hinders the provision of sewices at
55 percent of the centers. This problem has become more serious since 1988 at
31 percent of the centers. In addition, limited collocation of setices on site seriously
restricts the comprehensiveness of care at 26 percent of the centers. Centers that
cited limited space as a serious problem more frequently cited limited collocation of
semices as a serious limitation.

 �    Inadequate health insurance: An average of 19 percent of each center’s perinatal
clients were uninsured in 1990. At 29 percent of the centers, 25 percent or more of
the perinatal clients were uninsured. At 9 percent of the centers, more than
50 percent were uninsured. These clients received semices free of charge or at
reduced rates, according to a sliding scale.


MEDICAID FUNDING: iUedica&i fiuuiing for petital            care at the centm has increased
in recent yea~ but centzm repti       that Medicad policia and pmcedures-inchding     a
burdensome application process, inadequate
                                  “           reimhuxement rota, a reistited mnge of
covered servicq and limited eli’ility--are   among the facton that serixdy inhibit the
pmvkion of care at mmt centem

  �  Medicaid reimbursements:   Medicaid reimbursements to the centers increased
approximately 56 percent between 1988 and 1990.32 As a percentage of total center
revenues, they increased from approximately 17 to 21 percent.

  � Medicaid+mrolled clients as a portion of perinatal caseload: An average of
67 percent of each center’s perinatal clients were Medicaid-enrolled in 1990. At
50 percent of the centers, at least 71 percent of these clients were Medicaid-insured.

  �   Medicaid limitations: Medicaid eligibility expansions or presumptive and continuous
eligibility provisions resulted in an increase in demand for perinatal services at 57 percent
of the centers, but difficulties with Medicaid policies and procedures--including
burdensome application procedures, inadequate and/or slow reimbursement, restrictive
eligibility criteria, or a limited range of covered services--seriously limit the provision of
perinatal care at 73 percent of the centers (see table 2).




                                             9
                                             Table 2
                        Percentage of Gnters Citing Each of the Following
                             Medicaid Factors as a Serious Limitation
                                                                                I

                          Burdensome application procedures                     1 5470
                   II      Inadequate reimbursement         rates               I   4970    II
                   I
                           Restrictive eligibility criteria                     I   42$Z0   II
                   11     Slow reimbursement        process                     i   41%     II
                   II      Limited range of covered services                    !   40%     II
                         Source   OIG Survey of Community   Health   Centers,   June 1991
                                                   N=369


Several recent Medicaid reforms have been designed to increase access to perinatal
care. These had not yet been fully implemented at the time of our survey:

      o    Only 56 percent of centers offered assistance with Medicaid enrollment on
           site, even though Federal law required that the States outstation workers to
           do S0.33

       o   Only 27 States and the District of Columbia had begun to implement cost-
           based reimbursement to CHCS as of May 1991, even though the Federally
           Qualified Health Center provisions of the Omnibus Budget Reconciliation
           Acts of 1989 and 1990 called on the States to do so by April 1, 1990.~


COMPREHENWVE            PERINATAL            CARE PROGRAM                       (CKT):       7%e CPCP p~vidt?d
supplemental jiuuis for enhanced petitid    servhx to approximately two-thinh of the
centem for at least one year between 198/3 and 1991. A bger pemntage of centm that
received CPCP fiuds than of those that did not expanded their range of semices between
1988 and 1990. CPCP gmnt recipients conduct more extensive case management than
other centem There were no significant ~krences,    howeve~ between gnmt recipik~ and
other centen in either the penzntage of ciknts who entered care in the jht Oimester in
1990 or the pacentage of these who received at ikast nine prenatal visits.

  �  Caseload size: In 1988, before CPCP funds were awarded, those centers that
eventually received CPCP funds served an average of 454 prenatal clients, compared
with an average of 156 sewed by other centers. In 1990, CPCP-funded centers served
an average of 547 prenatal clients; other centers served an average of 201.35 Thus,
CPCP-funded centers seined considerably more clients than other centers, but there is
no significant difference between CPCP-funded centers and other centers in the rate
at which caseload size grew between 1988 and 1990.M

  ~ Semites: CPCP funds were intended, in part, to support increased perinatal
services at the centers,37 and 80 percent of the CPCP-funded centers reported that



                                                      10
the range of perinatal semices increased between 1988 and 1990. Half of the other
centers reported that the range of services increased.

  E Case management: CPCP funds were also intended to support better
coordination of care for perinatal clients,w and 46 percent of the CPCP-funded
centers provide case management for all of the sefices recommended by PHS.
Twenty-two percent of the other centers provide case management for all of these
services.

In addition, 70 percent of the funded centers participated     in perinatal care consortia;
58 percent of the other centers did S0.39

  �  Timing of care: The CPCP was further intended to support early entry into care
and more prenatal visits.w Responses to our survey, however, indicate that CPCP-
funded centers and other centers did not differ significantly in terms of either the
percentage of center clients that entered care in the first trimester in 1990, or the
percentage of first-trimester enrollees that received nine or more prenatal visits in
1988 or 1990. Our study does not allow a comparison of CPCP grant recipients and
other centers with regard to trends over time in first-trimester entry into care.


URBAN-RURAL         COMPARISONS:           Urban centers exhibited   greater painatd  care
capacity in terms of prenatal casekuui S@ the mnge of semiax          Offi?r@ and revenuex
Rural centen provided more timely perinatal care. Urban and          mml centm identified the
same factom as setiu     limitations to the pmvkion of painatal      care.

  * Caseloads: Urban centers served more prenatal clients and experienced greater
caseload growth than rural centers. Prenatal caseloads at urban centers increased an
average of 23 percent between 1988 and 1990, from 477 to 586. Prenatal caseloads at
rural centers grew an average of 20 percent, from 261 to 312.

  * SeMWs: Only 6 percent of the urban centers that responded to our survey did
not offer any perinatal services on site between 1988 and 1990; 20 percent of the rural
centers did not do so. Of those that did offer sewices, a greater percentage of urban
(78 percent) than rural (63 percent) centers reported that the range of perinatal
semices they provided, either on or off site, increased between 1988 and 1990.

A higher proportion of urban centers offered on-site assistance with enrollment in
both Medicaid and WIC in 1990. Sixty-six percent of urban centers offered on-site
assistance with enrollment in Medicaid and 81 percent offered on-site assistance with
enrollment in WIC; 49 percent of rural centers offered on-site assistance with
enrollment in Medicaid and 54 percent offered on-site assistance with enrollment in
WIC.

  E Case management: A greater percentage of urban (44 percent) than rural (32
percent) centers provide case management for all the services recommended by PHS.


                                               11
A greater percentage of urban (34 percent) than rural (18 percent) centers, however,
also often encounter problems with the timely transfer of medical records to and from
referral facilities for setices other than delivery.

  �  Revenues: Total revenues for all services at urban centers increased 31 percent
between 1988 and 1990; total revenues for all setices at rural centers increased 20
percent. Section-330 funding increased approximately 18 percent at urban and rural
centers alike. This funding represented 3S percent of total 1990 revenues for urban
centers and 44 percent for rural centers. Medicaid reimbursements increased 59
percent at urban centers and 42 percent at rural centers. These reimbursements
represented 25 percent of total 1990 revenues for urban centers, and 13 percent for
rural centers.4*

  �   Timing of care: Rural centers, on average, provided more timely prenatal care
than urban centers. Seventy-six percent of the rural centers conducted initial prenatal
visits for their clients within 2 weeks of a positive pregnancy test, compared with 60
percent of the urban centers. On average, 59 percent of each rural center’s clients,
and 51 percent of each urban center’s clients, entered care in the first trimester in
1990. In addition, an average of 82 percent of the first-trimester enrollees at rural
centers and 74 percent at urban centers received at least 9 prenatal visits in 1990.

  �  Limitations: Urban and rural centers alike reported that their provision of
perinatal care is seriously inhibited by several factors, including medical staff shortages,
medical malpractice insurance costs, unsatisfactory community support, limited space,
and inadequate health insurance. There were significant differences between urban
and rural centers involving space and staffing.

Limited space seriously restricts the provision of perinatal care at a greater percentage
of urban (64 percent) than rural (48 percent) centers, and has become a more serious
problem since 1988 at a greater percentage of urban (38 percent) than rural (24
percent) centers.

Staff shortages present serious limitations to care at a larger percentage of rural than
of urban centers.42 At rural centers there was a 1 percent decrease in the number of
FTE obstetricians, family physicians, and certified nurse midwives between 1988 and
1990; at the same time there was a 20 percent increase in the size of the prenatal
client caseload. At urban centers there was a 12 percent increase in the number of
FTE providers and a 23 percent increase in the size of the prenatal caseload.
Difficulty arranging backup for obstetric supervision of family physicians is a serious
limitation to the provision of care at a greater percentage of rural (34 percent) than
urban (22 percent) centers. Consultation for high-risk patients is also a serious
problem at a greater percentage of rural (36 percent) than urban (21 percent) centers.
In addition, high medical-staff turnover has become a more serious limitation to the
provision of perinatal care since 1988 at a greater percentage of rural (18 percent)
than urban centers (11 percent) (see table 3.).



                                              12
                                                     Table 3
       Section-330-Funded                Urban and Rural Community Health Centem Compared
                                       ~~+
~
 Average increase in the number of prenatal client.sat each center, 1988to 1990:       23% / 2070
SERVICES
 Percentage of survey rm~ ndents that did not offer any perinatal semkes on site
                                                                                   -E 69Z0 20%
 between 1988 and 1991:
 Percentage of centers that reported an increase in demand for perinatal services:     899Z0 75%
 Percentage of the above centers that reported that capacity to meet this demand
 had decreased or remained the same:                                                   3470   42?Z0
 Percents e of centers that re orted that the range of perinatal services had
 increas J between 1988 and 1’990:                                                  R 78%     63%
 Percentage of centers that offered on-site assistance with Medicaid enrollment in     66?Z0 4970
 1990:
 Percentage of centers that offered on-site assistance with WIC enrollment in 1990: I 81% I 54%
CASE MANAGEMENT
 Percentage of centers that re orted that they provide case management for all
 services recommended by P r-?S:                                                    m
REVEhJUE@
 Percentage increase in total center revenues between 1988 and 1990:                   3170   2070
 PHS Section-330 grants as a percentage of total center revenues in 1990:              35%    4470
 Medicaid reimbursements as a percentage of total center revenues in 1990:          E  259Z0  13%
TIMING OF CARE                               ~~
 Percentage of centers that offered an initial prenatal visit within two weeks
 of a positive pregnancy test:                                                         6070   76%
  Percentage of each center’s clients enrolled during the first trimester:             51%    59?Z0
  Percentage of each center’s first-trimester enrollees who received at least
  nine prenatal visits:                                                             ~ 74%     82?Z0
LIMITATIONS
  Percentage of centers that reported serious medical staff shortages:                  59$Z0 67?ZOC
  Percentage change in the number of full-time-equivalent obstetricians, family
  physicians, and certified nurse midwives at centers between 1988 and 1990:            12%    -l%c
  Percentage of centers that reported serious difficulties stemming from high
~ract]ce       insurancecosts:                                                          56?40 559Zod
  Percentage of centers that experienced serious problems as a result of Medicaid
  Dolicies and Procedures:                                                           FE 76% 7090d
  Percentage of centers that reported serious roblems with communit
  coordination, community supp ort, or limit J hospital admitting privi eges-
  Percentage of centers that reported serious space limitations:           ‘-       ~k
                                      Source: OIG Sumwy of Community Health Centers, June 1991
                                           N= 167 for Urban Centers; N=202 for Rural Centers


a   These were not    included in the calculation of other statistics presented in the this report (see appendix A for methodology).
b   These data were    prowded by the Public Health Semke (see note 20). Statistical significance was not determined.
c   The differences   noted are statistically significant at the 0.1 kwel.
d   The differences   noted are not s[atisticalty significant.




                                                                     13
              KEY         AREAS              FOR         ACTION

In recent years, government at all levels has looked to the community health centers
to play a more prominent role in providing perinatal care to poor, high-risk women.
The growing financial investment in centers reflects heightened expectations for their
performance. These expectations rest on the assumptions of many policy makers that
centers are able to meet the growing demand for comprehensive, timely perinatal
semices.

As the data in this report suggest, the capacity of centers to provide perinatal services
has increased substantially since 1988. More women are being served, a wider range
of services is being offered, and total revenues for all center services have increased.

At the same time, there is reason for concern about the capacity of the community
health centers to deliver all that is expected of them. The findings of this report,
based on the most current and comprehensive data available, confirm that many
centers are burdened by major problems that limit their capacity to provide care.
These difficulties reflect problems of access and cost in the nation’s health care
system, and, as such, are, in part, dependent for resolution on broader national
reforms.

Independent of such reforms, however, we believe there are important actions that
policy makers can take now to strengthen the capacity of centers to provide care. The
data in this report suggest four areas in particular that warrant immediate attention.
Below we identi$ these four critical areas and offer suggestions for action.

Federal, State, and local policy makers should take steps to:

�      Address the staffing needs of the centers.

If community health centers are to serve more women, reach them earlier in their
pregnancies, and provide adequate care, they need a sufficient supply of obstetricians,
family physicians, certified nurse midwives, and nurse practitioners.

Centers need to be better able to attract, retain, and utilize various types of clinical
staff who are skilled in providing perinatal care; who are motivated to seine poor,
high-risk women; and who are allowed to practice, without undue restriction,
consistent with their training and experience. Thus, it is vital for policy makers to
identify cost-effective steps they can take to:

       (1)    ensure an adequate supply of those types of clinicians needed to provide
              perinatal services in ambulatory primary care settings such as centers;43

       (2)     develop more effective incentives for clinicians trained with public funds
               to locate in underserved areas. In this regard, it is particularly important


                                             14
              that the revitalized National Health Service Corps maximize its potential
              for addressing staffing needs through its loan repayment program,
              support training for an appropriate mix of clinical disciplines, and ensure
              that its recruitment and placement policies enhance the attractiveness of
              the program to young clinicians; and

       (3)    ease undue restrictions on the credentialing of certified nurse midwives,
              nurse practitioners, and physician assistants to allow their fuller
              participation in perinatal sexvice delivery.

 �      Assure that recent legislation effectively relieves the centers of the high cost of
medical malpractice insurance. The high cost of malpractice       insurance, particularly for
clinicians providing perinatal care, has limited the centers’ ability to offer services.

In late 1992, Congress took initial steps to address this problem by passing legislation
that extends medical malpractice liability protection under the Federal Tort Claims
Act (FT’CA) to health care providers at certain Federally supported health care clinics,
including Section-330-funded community health centers.~ Under the FI’C~ center
providers will be defended by the Justice Department in any malpractice litigation, and
any judgments will be paid out of a Justice Department fund, into which the centers
will pay annual contributions. This extension will be in effect for a trial period of
three years, after which the financial benefits of the arrangement will be assessed.

This coverage is intended to help alleviate the burden on the centers of malpractice
insurance costs. It is necessary to monitor this new arrangement to ensure that it
effectively addresses the centers’ concerns.

  �    Continue to improve ties between the centers and the Medicaid program.           An
effective link between centers and the Medicaid program is vital given the high
proportion of Medicaid-insured women sewed by the centers and the expanded
Medicaid coverage now available for their prenatal care. It is crucial for public health
and Medicaid officials to take steps to:

       (1)     continue to expedite the application and eligibility determination
               processes for Medicaid to improve the access of high-risk women to
               more timely perinatal care. In this regard, it is particularly important to
               simpiify the application forms, to streamline enrollment procedures, and
               to ensure that eligibility workers are outstationed at the centers; and

       (2)     ensure that the Federally Qualified Health Centers mandate, which
               allows centers to be reimbursed for reasonable costs, has been fully
               implemented and is working optimally.

Steps such as these are consistent with the current directions of the Department’s
Interagency Committee on Infant Mortality and with the recommendations and



                                              15
suggestions of other studies including two recent OIG reports on Medicaid coverage
for prenatal care.45

�      Continue to strengthen relationships between the centers and other health and
       social seMce providers in the community.

The perinatal semices offered by the centers must be linked more effectively with
those of other health and social service agencies. This coordination must go beyond
the mere sharing of information to include effective working relationships for referral
of clients and delivery of services.% It is particularly important to search for ways to
increase the number of obstetric providers who are willing to seine Medicaid
patients.47

Moreover, strategies to locate multiple programs at a single site and to provide
eligibility determination, complete program enrollment, and the delivery of services at
a single site deseme further emphasis. Other strategies warranting continued attention
are those that encourage more extensive use of common application forms and generic
eligibility workers.

It is particularly important to link centers and hospitals more effectively. Centers must
rely on hospitals to provide inpatient care, including delivery services, for their
patients; yet many centers have difficulty securing hospital privileges for their
physicians and certified nurse midwives. Such privileges are critical for delivering the
comprehensive, continuous care that the centers’ high-risk perinatal clients need.

Thus, it is important for policy makers to identify ways to ensure that center physicians
and midwives who meet appropriate requirements for licensure and training have staff
membership at hospitals in their communities. This membership should encompass
both admitting and delivery privileges. At present, the National Health Semite Corps
statute requires hospitals, as a condition of their participation in Medicare, to grant
privileges to corps physicians. This approach might be used to obtain privileges for
other clinical staff.w Alternative approaches to explore include linking the licensure
or tax-exempt status of hospitals to their guarantees of broader privileges for center staff.




                                            16
                    RECOMMENDATION


The Assistant Secretary for Healt4 the Administrator of the Health Care Financing
Administration and the Assistant Secretq    for Planning and Evaluation should
develop a plan of action to address the key areas outlined abave.

The PHS and HCFA should, individually and collaboratively, develop plans of action
that incorporate specific targets and concrete steps to ensure that the key areas for
action are addressed. The ASPE should review these plans and assure that they are
compatible and adequate to meet the nation’s goals for the year 2000 to reduce infant
mortality rates and increase access to perinatal care. The ASPE should coordinate
activities and monitor implementation of the plans.

The PHS cannot effectively address these problems alone. Other Departmental
components, State and local government agencies, and nongovernmental organizations
must be involved in planning and implementation. Of particular importance is
cooperation between public health and health care financing agencies at both the
Federal and State levels.

Only through concerted action to address the key problem areas identified above can
the potential for the community health centers be more fully realized. Strategies for
improving perinatal care, such as expanded insurance coverage and aggressive
outreach programs, will be successful only to the extent that centers can provide
sufficient clinical services linked effectively with other health and social semices.
Unless the serious problems affecting the community health center system are
addressed, the centers’ capacity to meet increased demand and heightened
government expectations will continue to be strained and the system will remain
vulnerable.
COMMENTS                      ON THE               DRAFT              REPORT


We solicited and received formal comments on our draft report from the Public

Health Semite (PHS), the Office of the Assistant Secretary for Planning and

Evaluation (ASPE), and the Health Care Financing Administration (HCFA). We

respond here to the major themes contained in the comments. We first summarize

the comments, and then provide our response in italics. We include the complete text

of the agencies’ comments in appendix C.


The PHS and ASPE concurred with our recommendation that PHS, ASPE, and

HCFA work together in developing and implementing a plan of action addressing the

key areas for concern identified in the report. These include the staffing needs of the

centers, the high cost of medical malpractice insurance, the ties between the centers

and the Medicaid program, and the relationship between the centers and other health

and social service providers in the community. The HCFA did not concur with our

recommendation.


To implement our recommendation, PHS will develop an action plan and will then

host a meeting of representatives of other agencies to review the plan and help

formulate steps involving offices outside PHS. Among the Department of Health and

Human Service agencies that will be asked to participate are ASPE, HCF~ the Office

of the Assistant Secretary for Management and Budget, and the Administration for

Children and Families. Also asked to participate will be the Department of

Agriculture’s Food and Nutrition Sewice, which administers the WIC program.


The ASPE proposed that it review a jointly developed PHS-HCFA plan, assure that

this plan meets national objectives for the year 2000 to reduce infant mortality rates

and increase access to perinatal care, and incorporate the plan into those actions

already in progress to meet the Secretary’s Program Directions.


The HCFA did not concur with our recommendation.           It suggested that the key areas

for action we identified are being addressed by current efforts in the Department.

The HCFA expressed concern that implementation of our recommendation could

result in a duplication or delay of these ongoing efforts.


l%e development and implementation of an interagency action plan by PHS, ASPE, and
HCFA is critical to the strengthening of the community health centem’ perinatal care
capaci~. We are pleased that ASPE and PHS have agreed with our recommendation for
an interagency effort to address the key areas for action that we identified.

We continue to believe that the participation of HCFA, which plays a vital role in suppoti
of the community health centen ’provkion of pen”natal care, is important to thti effort,
and we urge that HCFA reconsider its position.




                                             18

We recognize that PHS, ASPE, and HCFA are involved in ongoing inihahves that address
concerns about infant mortality and pen-natal care. We uige PHS, ASPE, and HCFA to
consider these current activities as resources upon which to draw in developing a
comprehensive plan that incorporates bo~h specific targets and concrete steps to ensure
that the key areas for action are atiressed. We suggest that the drafting and
implementation of such a plan be used as an opportunity to bn”ngsharper focus to efforts
addressing pemistent problems, and that the agencies not duplicate or delay current work
We hope the interagency effort will also provide an oppo~nity to further involve State
and locat’policy maken in a concerted plan to suppon the centem ’provision of perinatal
care.


Technical Comments

Medical Malpmctice   Liability

After our draft report was released, Congress passed legislation (P.L. 102-501) that
extends medical malpractice liability protection under the Federal Tort Claims Act
(FTCA) to health care providers at certain Federally supported health care clinics,
including Section-330-funded community health centers. Under the FT’C~ center
providers will be defended by the Justice Department in any malpractice litigation, and
judgments will be paid out of a Justice Department fund, into which the centers will
pay annual contributions. This liability protection will be provided for three years, at
which time the financial benefits of the arrangement will be assessed.

We have revked our report to reflect the new legislation. We believe that the centem’
medical malpractice insurance concerns warrant continued attention, and we u~e PHS,
ASPE, and HCFA to incorporate into their action plan an effort to monitor the
implementation of the law and assess the cente~’ expen”ence with the new arrangement.


Methodology

The HCFA expressed concern that our report might be based on incomplete
information because we did not intetiew representatives of HCFA or State Medicaid
agencies.

Our report focuses on trends in the community health centen’ capaci~ to provide
perinatal care. As a bask for our findings, we relied primarily on information reported by
the centens. A comprehensive assessment of the Department k efforts relevant to infant
mortality and peri”natalcare would be beyond the scope of this report. We have revised
our report to indicate more explicitly the focus and methodology of our study.




                                            19

The Implemenuwn     of Rec&    Me&a&i    Refonru

The HCFA cites information on the outstationing of Medicaid eligibility workers and
the implementation of FQHC cost-based reimbursement that is more recent than that
in our report.

Our information on the outsta~ioning of Medicaid eligibility workers came from centen’
responses to our suIvq in June 1991. our information on the implementation of FQHC
cost-based reimbursement to the centen was provided by PHS and was accurate as of
May 1991.

We expect that progress s}lould have been made in both areas since the time of our study.
771ecenters cited several additional Medicaid factors as serious limitations to their
prowkion of perinatal care, however, and we continue to believe that the ties between the
centers and the Medicaid program need to be improved.




                                            20
                            APPENDIX                   A

                                  METHoDoImGY

We obtained information for this report through a mail sumey of all community health
centers receiving Section-330 funds as of June 1991, site visits to several centers, a
series of intewiews, and a review of relevant literature and data. our findings are
based primarily on the centers’ responses to our survey.

Mail Survey We sent a mail survey of perinatal services to all Section-330 grant
recipients in June 1991. Of 514 centers, 431 (84 percent of rural and 84 percent of
urban centers) responded, including centers in every HHS region and every State and
territory in which centers are located, with the exception of Washington, D. C., and the
U.S. Virgin Islands. A review of geographic and demographic information suggests no
significant differences between respondents and nonrespondents.

of the 431 respondents, 62 (14 percent) provided no perinatal services on site during
the 1988-91 period. The numbers and percentages in the body of this report, unless
otherwise noted, reflect the responses of those 369 centers (72 percent of all centers)
that offered semices on site in at least 1 year during the 1988-91 period.

Of the 369 respondents that provided semices on site during the study period, 235 (64
percent) received CPCP funds. For the purposes of this report, a “CPCP-funded”
center is any center that received CPCP grant funding at any time during the past 3
years, regardless of the year in which its initial grant was awarded.

Not all respondents provided complete information. We calculated the trends
presented in the body of this report from the responses of those centers that provided
the relevant information for all years.

Unless otherwise noted, the statements in the body of this report that compare        groups
of centers (for example, rural and urban centers) reflect statistical significance   at the
.05 level. In reporting responses to survey questions that solicited information     on a
scale, we combined responses of “moderately” and “substantially” and reported        them as
“seriously” or “serious.”

Site Visits: The study team conducted site visits to nine centers:  three in
Massachusetts, two in Connecticut, and one each in Texas, Wisconsin, Ohio, and
Oregon. The team toured these facilities and interviewed management and clinical
staff. The study team also conducted a telephone interview with administrative and
clinical staff at a center in Mississippi. We choose the centers based on discussions
with regional PHS staff and with consideration of geographic representation and
community size. Of the ten centers, seven had received CPCP funding.




                                           A -1
Intetiews: The study team held discussions with (1) officials in PHS’S Bureau of
Primary Health Care (BPHC) (at that time called the Bureau of Health Care Delivery
and Assistance), both in headquarters and in those regional offices responsible for the
oversight of site-visit centers; (2) State primary care association and cooperative
agreement staff in those States and regions in which site-visit centers are located; and
(3) infant and community health experts, including staff at the Children’s Defense
Fund, the National Commission to Prevent Infant Mortality, and the National
Association of Community Health Centers.

Literature and Data Review: The team reviewed extensive literature in the areas of
infant and community health. The Public Health Service provided us with financial
data that were collected from the centers through the Bureau’s Common Reporting
Requirements reports, and with financial and user data that were collected from CPCP
applicants through the Perinatal User Profile reports.
                              APPENDIX                     B
                       URBAN AND RURAL SURVEY RESPONSES


The Office of Inspector General suwey was mailed to 514 community health centers in May
1991. Of the 431 (84 percent) that responded, 62 provided no perinatal sexvices on site during
the 1988-91 period. Below we present the frequencies and mean responses for those 369
centers that did Drovide sefices at some point
                                         .     during—this period. Not all centers answered
every question. ‘me number of respondents to each field (N) is indicated in parentheses as
appropriate.

Any discrepancies between the responses below and the data presented in the body of this
report are a result of the methods used in aggregating data and calculating trends. Please see
appendix C for a discussion of statistical methodology.



Number of centers that offered pcrinatal sexvices on site in each year:

         1988:   Yes=331   No=33
         1989:   Yes=341   No=26
         1990:   Yes=352   No=16
         1991:   YeS=349   NO=18




 A CASELOAD                                           1988            1989          1990

 1. Please indicate:
                                                                      MEAN(N)
 a. the number of women who received prenalal
     care at your center:                             359 (283)       391 (323)     406 (345)
 b. the percentage of these clients who were
     high-risk as defined by your center:              31% (222)      33% (259)     33% (288)
 c. the percentage of these clients who were
     low~ris~ as ~efined by your center:               55% (217)      55% (255)     56% (279)
 d. the number of births to your center’s
     clients:                                          253 (259)      273 (296)     310 (284)

 2. Of the women who gave birth in your setice
    area, what percentage received prenatal care
    at your center?                                    37% (199)      40% (218)     43% (214)




                                             B-1
B. COMMUNITY COORDINATION

1. Does your center currently participate in a consortium of perinatal care providem?

          Yes =240       No =128           If YES, please continue.

2. ~ich     of the following participate in the consortium? (Please check all that apply):

          a. state health department:      107            f. nonteaching hospitals:                 84
          b. local health department:      173            g. private-practi~ physicians:            113
          c. health clinics:               116            h. gov. social setvice agencies:          104
          d. schools:                      67             i. non-profit organizations:              116
          e. teaching hospitals:           122            j. other:                                 24

3. On the last page of this survey, briefly describe the coordination of consortium activities and
your center’s involvement.


C. CLINIC SITES AND HOURS                                  1988              1989            1990

1. Please indicate the number OE                                             MEAN    (N-)

a. clinic sites operated by your center:                  2.2 (351)          2.3 (353)       2.4 (357)

b. clinic sites at which prenatal care
    was provided:                                          1.7 (357)         1.7 (359)       1.8 (361)

2. On how many days a week did your center
provide scheduled prenatal appointments
either before 8AM or after 6PM?                            1.0 (344)         1.1 (347)       1.2 (351)

3. On how many Saturdays a month did
your center provide scheduled
prenatal appointments?                                     0.5 (340)         0.5 (342)       0.6 (347)


 D. Funding

 1. Compared with 1988,the amount of funding available for perinatal care at your center in 1990
 was:

           Larger= 185     Smaller=47        Unchanged= 114

 2. Please indicate the percentage of your center’s 1990 perinatal clients covered by: MEAN ~

           a. Private insurance:    10.3% (318)                       c. Medicaid:            66.9%0 (319)
           b. No insurance:         18.9% (321)                       d. Other:                3.1% (330)




                                                   B-2
3. To what extent have the following factors resulted in increased demand for perinatal services
at your center over the past three years?
                                                   Not at all/            Moderately/
                                                   Somewhat               substantially

       a. Medicaid eligibility expansions:            134                     194

       b. Medicaid presumptive and
           continuous eligibility provisions:         150                     174




IZ PERINATAL OUTREACH

1. To which of the following groups does your center currently target specific perinatal outreach
efforts? (Please check all that apply)

        a. Teenagers:         310                  c. Non-English speakers:         157
        b. Substance abusers: 133                  d. Other:                        106

2. At which of the following locations does your center currently conduct perinatal outreach?
(Please check all that apply)

        a. Community                                d. Schools:                     238
           centers:               179               e. Welfare offices:             120
        b. Shops:              47                   f. Churches:                    107
        c. Door-to-door in the                      g. Other:                       128
           neighborhood:       76

 3. Through which of the following media does your center currently conduct perinatal outreach?
 (Please check all that apply)

        a. Television:             61               d. Radio:                       104
        b. Newspapers:            180               e. Other:                        97
        c. Pamphlets:             283

 4. Compared   with 1988, your center’s outreach efforts in 1990 were:

        Greater= 232        SmaUcr=27           ‘Thesame=87

 5. Compared with 1988, your center’s outreach efforts in 1990 yielded:

         More clients=245        Fewer clients=23           The same number of clients=57




                                                    B-3
F. PEIUNATfi          SERV’IL~

1. Please indicate which of the following services were provided        by through
                                                                  --either your center.  If these
                                                                                   contract,       were
                                                                                             affiliation,
offered on site, please circle On. If these were offered off site
or paid referrall-pleme circle OK
                                                             1988          1989             1990

                                                             ~.~           On=lol           orl=l13
a. Ultrasound:                                                                              0ff=226
                                                             0ff=230       off=224
                                                             On=ls         on=14            on=20
b. Amniocentesis:                                                          off=295          0ff=297
                                                             01x=286
                                                             Orl=so        orl=53           on=59
c. Genetic counseling:                                                     0ff=244          0ff=247
                                                             ~=237
                                                             on=71         on.~             on=95
d. Non-stress testing:                                                                       off=211
                                                             0ff=220       off=210
                                                              on=201       on=199            on=206
 e. Dental care:                                                                             0il=131
                                                              Off=llo       OEi= 122

                                                             0n=285         orl=2%           0n=312
 t.    Nutritional setices:                                                                  Off=27
                                                             0E=43          0fi=42
                                                             011=307        on=319           on=339
 h. Health education:                                                                        0fl=16
                                                             0ff=27         0ff=21
                                                             0n=161         on=179           On=l%
 i. Birthing classes:                                                       Off= 127         Off= 126
                                                             off= 133
                                                             0n=163         0Q=181           0n=223
 j. Parenting/infant     care classes:                                      0H=116           Off=%
                                                             off= 120
                                                              011=326       on=330            on=343
  k. Family planning:                                                                         0ff=13
                                                              0ff=12         0ff=13
                                                              on=137         0n=142           0n=165
  1. Smoking cessation programs:                                                              Off= 128
                                                              Off= 122       Off= 126
                                                              0n=63          0n=62            on=79
  m. Substance abuse treatment:                                                               0ff=233
                                                              off=220        0H=227
                                                              on=179         0u=230           0n=278
      n. HIV counseling/testing:                                                              0ff=56
                                                              off= 105       0ff=81



      2. Compared with 1988, the range of perinatal
      semices offered by your center in 1990 was:

              Greater= 250         Smaller=30    Unchangd=79

      3. Were perinatal clients enrolled on-site at the center
      in the following programs’]
                                                               yes=89         yes=135          Yes=205
               a. Medicaid:
                                                               No=256         No=213           No=156
                                                               yes=212        Yes=230          Yes=241
               b. WIC:
                                                               No=136         No=124           No=121




                                                      B-4

                                                            1988             1989              1990


4. Did other government orprivate    social setice
organizations	 provide sewica on-site at your                                Y~=108            Yes= 138
                                                            Yes=98
center?                                                                      No=242            No=224
                                                            No=247


5. Did your center facilitate access to perinatal
care by providing the following services?
                                                            Yes=161          yes=186           yes=211
a. Transportation   to and from appointments:                                No=164            No=150
                                                            NO=183
                                                            Yes=205          Yes=215           Yes=230
b. Translation for non-English speaking clients:                             No=11O            No=99
                                                            No=113
                                                            yes=30           yes=34            yes=47
 c. Child care during center appointments:                                   No=319            No=311
                                                            No=316
                                                            Yes=161          yes=204           Yes=230
 d. Home visits:                                                                                No=131
                                                            ;0=184            No=150



 G. STAFFING                                                                                    1990
                                                             1988             1989


 1. How many full-timeequivalenfi of each
 of the following provided perinatal services
                                                                              MEAN (N=369)
 on-site at the center?

                                                             0.64              0.70             0.66
  a. obstetricians:                                                                             1.11
                                                             1.08              1.09
  b. Family physicians:                                                                         0.28
                                                             0.23              0.25
  c. Certified nurse midwives:                                                                  0.66
                                                             0.56              0.62
  d. Nurse practitioners:                                                                       0.34
                                                             0.29              0.31
  e. Physician assistants:


  7L. Please indicate below: (i) the number of your perinatal provider positions which are currently
  vacant; (ii) the number which have been vacant for more that six months; and (iii) the number
   which have been vacant for more than one year         MEAN (N=369)

                                                     (i)              (ii)             (iii)
                                                     Number of        More than        More than
                                                     vacancies        six months       one year


                                                     0.33             0.27             0.16
   a. Obstetrician:
                                                     0.41             0.35             0.20
   b. Family physician:
                                                     0.14             0.11             0.06
   c. Certified nurse midwife:

   3.	 Compared with 1988, the percentage of your perinatal providers with admitting privileges at
   local hospitals in 1990 was:

            Larger=93      Smaller=67        Unchangd=       188



                                                     B-5
H. TIMING OF CARE

1. Please indicate the percentage of your center’s 1990 prenatal clients who entered care in the:
                                     w
       a. First trimester:      55.0% (N=337)
       b. Second trimester:     34.6% (N=334)
       c. Third trimester:      10.1% (N=302)                        MEAN (n)

                                                      1988            1989           1990

2. Of those clients who entered care during the
first trimester, and carried to term, what
percentage
.             received at least nine prenatal
medical visits?                                       75% (183)       76% (218)      79% (255)

3. What percentage of your center’s prenatal
clients returned for postpartum visits
during the first eigh~ weeks after delivery?          68% (205)       70% (263)       73% (303)

4. What percentage of all infants born to center
r)renatal clients returned for newborn visits
~uring the first four weeks after birth?              68% (200)       70% (248)       73% (286)


1. APPOINTMENTS FOR CARE

1. If a woman called today to schedule a pregnancy test, how long would she wait for an
appointment?

        Pregnancy tests are offered                   Less than one week:     113
         on a waik-in basis:           228            One-two weeks:           20
                                                      More than
                                                       two weeks:               5

2. If the pregnancy test were negative, would she be referred to family planning services?

        Yes=328     No=35

3. If the pregnancy test were positive, how long would she wait for her first prenatal visit?

        The first perinatal visit is                   Less than two weeks:    193
         provided in conjunction                       Two-four weeks:         100
         with the pregnancy test:      59              One-two months:          9
                                                       More than
                                                        two months:              4

 4. Compared with 1988, waiting room waiting times at perinatal appointments         in 1990 were
 generally:

        Shorter= 121      Longer=59      The same= 162


                                               B-6
J. CASE MANAGEMENT

1. Does your center currently provide case management to promote the coordination of services
for perinatal clients?

       Yes=337       No=32       If YES, please continue.

2. Case management at your center is primarily conducted by (please check only one):

       The client’s primary care doctor:               32
       The client’s primary care nurse:                37
       The appointmen~ secretary:                       2
       A multidisciplina~ team:                        123

        A center employee whose main
           responsibility is case management
           for perinatal clients:                       126

        Other:                                              18

3. Case management at your center is provided for (please check only one):

        All perinatal clients:                         272
        All high-risk perinatal clients:                43
        Only certain groups of
            perinatal clients:                          23

 4. Case management of perinatal clients at your center comprises (please check all that apply):

        a. Risk assessment:                             320
        b. Planning of care:                            314
        c. Assessment of adequacy and
            appropriateness of setices:                 278
        d. Client advocacy:                             277
        e. Contact with other organizations
            to arrange for services /
            schedule appointments:                      322
        f. Assistance with paperwork related to
            WIC, Medicaid, and other programs:          299
        g. Discharge planning:                          186

        Coordination of
         h. Medical services provided
            on-site at the center:                      311
         i. Medical sexwices provided
             off-site:                                      276




                                                 B-7
Continued:

       j. Delivery services:                               245
       k. Social sewices provided
           on-site at the center:                          253
       1. Social semices provided
           off-site:                                       243
        m. Nutritional services:                           313
        n. Health education:                               315
        0. Other:

5. Compared with 1988, the percentage of all center perinatal clients case managed by your staff
in 1990 was:

        L.arger=266       SmalIer=17        Unchanged=44

6. Does your center often encounter problems assuring the timely transfer of medical records to
and from facilities to which perinatal clients are referred?

        For delivery:              Yes=76      No=262
        For other care:            Yes=84      No=244

7. Please estimate the percentage of cases in which your center contacts perinatal clients to
reschedule missed appointments:
        ~m
        65%       (N=309)

8. Please indicate the manner in which you contact clients to reschedule missed appointments
(please check all that apply):

        Mail= 305         Phone=   329      Home visit= 207      Other=   25

9. Are perinatal clients at your center routinely attended by either the same primary medical
provider or the same provider team at each perinatal visit?

        Yes=321       No=13




                                                  B-8
K LIMITATIONS ~             CARE      Please indicate the degree to which each of the following factors
limits your center’s    ability to provide   perinatal   setvices:
                                                                     Not at W              Moderately/
                                                                     Somewhat              substantially

 1. Shortage of medical staff                                        132                    227
 2. Shortage of nonmedical staff                                     250                     95
 3. High medical staff turnover:                                     240                    105
 4. High nonmedical staff turnover:                                  303                     38

Difficulty obtaining admitting privileges
at local hospitals for:
  5. obstetricians:                                                  276                     31
  6. family physicians:                                              275                     46
  7. certified nurse midwives:                                       178                     83

8. High cost of malpractice insurance:                               150                     190

Difficulty obtaining malpractice insurance for:
 9. obstetric providers:                                             255                     62
 10. all providers:                                                  280                     51

 Difficulty arranging medical backup for:
  11. OB supervision of certified nurse midwives/
      nurse practitioners:                                            185                    102
  12. OB supewision of family physicians:                             209                     85
  13. coverage during center staff vacations,
       holidays, and weekends:                                        1%                     143
   14. consultation for high-risk patients:                           240                     99

   15. Limited relationships with local
      community and government organizations:                         318                     31
   16. Lack of other providers in the community
      willing to treat uninsured or publicly
       insured women:                                                  142                    206

 Non-acceptance of cer~ified nurse midwives/
 nurse practitioners:
   17. by the medical community:                                       204                    108
   18. by patients:                                                    277                     21

   19. Inadequate center funding:                                      139                    210
   20. Difficulties related to funding obtained
      from many different sources:                                     187                     147

  Medicaid-related problems:
   21. slow reimbursement process:                                     207                     141
   22. inadequate reimbursement rates:                                 175                     170
   23. limited range of covered services:                              206                     135
   24. restrictive eligibility criteria:                               199                     146
   25. burdensome application procedures:                              163                     188

    26.   Limited case management:                                     246                        94
    27.   Limited collocation of services:                             242                      83
    28.   Limited space:                                               156                     193
    29.   Other                                                         37                      28


                                                          B-9
mich of these factors have become             LESS SERIOUS or MORE        SERIOUS limitations        since
1988?
                                                              More
                                                              serious                   serious

                                                              139                        49
 1. Shortage of medical staff                                                            44
                                                               43
 2. Shortage of nonmedi~l staff                                                          45
                                                               51
 3. High medical staff turnover:                                                         45
                                                               15
 4. High nonmedid     staff turnover:

Difficulty obtaining admitting privileges
at local hospitals for:                                                                   40
                                                               17
  5. obstetricians:                                                                       33
                                                               23
  6. family physicians:                                                                   29
                                                               26
  7. certified nurse midwives:
                                                               91                         25
  8. High cost of malpractiu     insuranu:

 Difficulty obtaining malpractim insuran~      for:                                       27
                                                                32
  9. obstetric providers:                                                                 27
                                                                21
   10. all providers:

 Difficulty arranging medical backup for:
  11. OB supervision of certified nurse midwivti/                                          29
                                                                55
       nurse practitioners:                                                                28
                                                                45
   12. OB supetision of family physicians:
   13. coverage during center staff vacations,                                             31
                                                                76
       holidays, and weekends:                                                             33
                                                                54
   14. consultation for high-risk patients:

   15. Limited relationships with local                                                    69
                                                                 12
      community and government organizations:
   16. Lack of other providers in the community
      willing to treat uninsured or publicly                                               28
                                                                111
       insured women:

  Non-acceptanm of certified nurse midwivti/
  nurse practitioners:                                                                         50
                                                                 27
    17. by the medical community:                                                              48
                                                                  8
    18. by patients:
                                                                    89                         44
    19. Inadequate center funding:
    20. Difficulties related to funding obtained                                               22
                                                                    69
        from many different sources:

   Medicaid-related problems:                                                                  66
                                                                    54
    21. slow reimbursement process:                                                            90
                                                                    57
    22. inadequate reimbursement rates:                                                        69
                                                                    44
    23. limited range of covered servim                                                        110
                                                                    49
    24. restrictive eligibility criteria:                                                       80
                                                                    63
    25. burdensome application procedures:
                                                                    32                          86
     26.   Limited case management:
                                                                     22                         52
     27.   Limited collocation of services:                                                     43
                                                                    107
     28.   Limited space:                                                                        2
                                                                      8
     29.   Other


                                                      B-10
L CONCLUSION

1. Over the past three years, demand        for perinatal    care at your center   has:

       Imxeasd=201           Decreased =22          Not changed=40

2. Over the past three years, your center’s capacity to address the demand for perinatal care in
your setvice area has:

        Inereawxl=210       Dtxxead=88            Not changed=64




OPEN-ENDED QUESTIONS: [Center responses are not included here]:


3. What are the three most significant barriers to delivering perinatal care that your center has
faced in the past three years?

4. What special projects,   initiatives,   or programs      has your center undertaken over the past three
yms   to improve its ability to respond to perinatal care needs in your setvice area?




                                                     B-n
                           APPENDIX                  C

              DETAILED     COMME~         ON THE DRAFI’ REPORT

h th~s appendti, we present the complete comments on the draft repofi received from
the Public I-lea\th Setice (PHS), the Office of the Assistant Secretaq for Planning
and Evaluation (ASPE), and the Health Care Financing Administration (HCFA).



   Public Health Sewice                                    Page C-2

   Assistant Secretary for Planning and Evaluation          Page C-5

   Health Care Financ~ng Admlnlstratlon                     Page C-6




                                          c-1
       +
           ,.   ,11*1 <,,
                         ‘>
                          ,.
 ...
*

~-;
  ’56>
      *3

     ‘~,ilc~
                     ( i’
                      --        DEPART,’tlENTOF HWLTII & HUALNJ SERVICES                        f%bfic
                                                                                                    Heakh SeM”ce



                                                                                                Memorandum
                     C3:e       �       NOV   ~   w
                     ~fom           -
                               ~~ssi~tant         secret s.-y for Health

                          Office of Inspec:cr General Reports on the Perinatal Service
                     ‘Ub’mq
                          Capacity of the Federally Funded Community Health Centers,
                          OEI-01-90-02330, OEI-01-90-(12331, and OEI-01-90-02332
                      To
                               Acting Inspector General, OS


                               Attached    are the Public Health  Servi-ce  (PHS) conmen~s  on the
                               subject    Inspector  General reports- We concur with the
                               recommendation for PHS, in coordination with the Health Care
                               Financing ~%dmini~tration and the Assistant Secretaq for
                               ?lanning     and Evaluation, to develop and hnplement a plan of
                               action   to address   the key areas for action    identified in these
                               reports.      Our coxmenta discuss some of the actions planned or
                               underway to Lnprove perinatal services in the community health
                               center~  .




                               ~Attacbunent
                                                           k
                                                           v
                                                                     (’)+WW-’
                                                               ames O. Mason,   M.D., DroP”~”




                                                                            C-2
 PUBLIC !~ZALT1iSERVTCE {PHS\ COMMENTS ON THE OFFICE OF INSPECTOR
     GENERAL (OIG\ 2EPORTS ON THE PERINATAL SERVICE     CAPACITY
        OF THE FEDE?ALLY FUNDED COMKUNITY HEALTH CENTERS,
      OE1-01-90-02330,  OEI-01-90-02331, AND OEI-01-90-02332


The OIG reports sm~arize the results of an inspection                           which
revealed       that  the per~natal       capacity    of the co~~lty           health
centers      (CHC) inc~cased       in several     respects    between 1988 and
1990. However, OIG reports that the inspection also                         revealed
that    the demand for ~e~~ices            also i~cre~sed     apd ~ny       clients      do
not    receive the optimal         coordinated      package   of care in a t~ely
fashion.         The reports note t-hat several           key constraints         limit    the
perinatal capacity of the CHCS. OIG suggests                     that     a cooperative
effort     involving     government      at the Federal, State,           and local
levels    , as well as non-governmental organizations is needed                         tO
acidxessi    these   find~ng8.

The OIG report      desc~lbes    many programs     ud    lniti.atf-ves   Of the

Bureau of Healti Care Delivery and Assistance                  (BHCDA).    BHCDA,

which   is part    Of the PHS’ Health      Resources and Services

Unistration         (lIRSA),ha6 reorganized        and is now called         the

Bureau    of Primary !-lealthCare (BPHC).          In the PHS comments          Which

follow,    we will    refer   to the organizatiorl     responsible      for

managing    the CIIC program     by this   new title.


OIG Recommendation


We recoxmnend that           PHS, the Health Care Pinancing Administration
(HCFA), and the Assistant Secretary             for planning      and Evaluation
(ASPE) develop and iii,plementa plan of action               to:     (1) address
the staffing         needs of the CHCS, (2) relieve the CHCS of the high
co~ts     of medical        malpractice insurance, (3) improve        ties  between
the CHCS and the-xedi.caici           pragram, and (4) strengthen
relationships           between   the CHCS and other  health     and social
service       providers       in the co~~ityc

PHS Comments


We concur with this recommendation. We are particularly
appreciative of the OIG recommendation to bring together agencies
throughout the Department of Health      and Human Semites    that can
work with  BPHC on i.nproving perinatal     services in CHCS.
Furthermore, 13PHC is prepared to take the lead on development on
the plan recommended k~ OIG. we consider it critical that the

plan be the result of a process that includes the participation
of Departmental agencies and other      affected parties (e.g. , State
and local govenm,ent agencies, grantees) .

 The lEISA and the 21{SInteragency Committee on Infant Mortality
 (ICIM) are prep~r~d tO “~ork with other agencies throughout the
 Department of ~IeaL:h and Human Semites to address the key issues



                                                   c-3
                                                                                     2




identified  in the OIG report and improve perinatal                se~~ces   in
the CHCS. HRSA plans to take the following actions                   to Implement
this recommendation:

1.	   In the Autuii of i992, convene an internal                 work group to
      outline    the steps       and develop    an implementation       plan that
      describe     the direction      BPHC and its      p~09~~s    f~~l    ‘ake ‘n
      addressing the OIG report’s            recomendation~
      implementation        plan will be developed to co+.ncide with
      discussion       affecting     Fiscal    Year 1993 fmdlng=

2.	   In collaboration        with the ICIM, convene a meeting of
      Departmental      representatives      who can review   BPHC’S plan and
      help   formulate     step8     involving offices external to BPHC*
      Agencies     asked to participate       will  include  other l?HS
      components? XPE~ ~~c~h~ the Office of the Msistmt        .        .  for

      Secretaq       for Management and Budget, the AtinistrntlOn
      Childzen and Families, and the Depa~ent               of Agriculture’s
      WIC Program.


      The KRSA plans to convene     this meeting    before    the end of
      calendar   year  1992 and
 produce a plan with admhistrative
      hnrovments      and action  steps to coincide      with the budget

      an; legislative cycle.


       We concur     that    X5PZ approve       and nonitor    this    plan once it
       has   been   apprcved      by the Assistmt Secretaq             for Health­
                                                             .            CongreSs
 In a directly related matter, before adjoum>ng                     the
 passed ~egi~lation        {i?.~.    6183) which extends       Federal     Tort Clahs
                                                      to health care providers
 fict (FTCA) protection for three years
 employed by certain Federally-funded health care entlties~
 including CHCS. The FTCA coverage is paid for by a Judqent Fund
 in the U.S. Treasury, and the Depar~ent of Justice handlee the The
 cases with help frcn the General Counsel of each Deparment”
 bill requires annual          contributions from the relevant progr~f
  e.g., CHCS, to the Juaqent Fund, baaed on the prior                      year’s
  experience.     There     are riaxi.mm     limits   to the annual
  contributions .       At  the    time   these   comments  were prepared, the
  President had not signed           this   bill.




                                               C-4

   ~+
    ‘
     ��������
                ‘f,
 ,
 .
:                       DEPARTMENT   OF HEALTH & HUMAN    SERVICES                            offkaofthas~
:
.,
      ~
 -0
  ‘*,b
     I,.,,a
     >                                                                                        Washington,    D.C.20201
                                                           JLJL161W

                      TO:          Richard P. Kusserow
                                   Inspector General

                      FROM :       Assistant Secretary      for Planning           and   Evaluation

                      SUBJECT :    OIG Draft Reports on the Perinatal SeNice capacity of
                                   the Federally Funded Community Health Centers, OEI-Ol-
                                   90–02330; OEI-01-90-02331; and QEI-G1-90-02332

                      Thank you for submitting   for my review and comment the draft
                      copies of the subject  reports.   The reports provide  useful
                      information on issues pertaining to peiinatal senice capacity in
                      Community Health Centers [CHCS).

                      I support the recommendation that the Assistant Secreta~ fOr
                      Health  and the   Administrator       of the Health     Care Financing
                      Administration    develop a plan of action to address the key areas
                      outlined in these reports, and that the Assistant Secretary                for
                      Planning   and Evaluation       review such a plan to assure that our
                      national objectives to reduce infant mortality rates and increase
                      access   to perinatal     care are met by the year 2000.           The role of
                      CHCS is increasingly important           in our efforts     to achieve health
                      care refom and provide better access to undersexed communities.
                      We look fonard to workin~ with PHS and HCFA to assure ‘hat ‘Ur
                      limited health care resou~ces are used as effectively                  as
                      possible.

                       We intend to incorporate   this action plan into the actions
                       already in progress in the Secretary’s Program Directions plan to
                       improve pre- and perinatal   care.

                       lf you have any questions,        please         phone   Elise    Smith on 690-1870.

                                                    .




                                                                  c-5
                                                                                       Health   Care
            DEPARTAIENTOF HEALTH & HUhlAN SERVICES’                                    financing Administration

            n*ln?Ann

                                                                                       Memorandum
Date


       h
            ““Z7’4L
            \Villim Toby, Jr.’
‘rem
       ()   .Aicting Adminktrator

       Office of Lnspector General (OIG) Draft Reports on the PerinaEl Setice                     Capacity of
5Ublecl
       the FederaLIy Funded Communltv / Health Centers,
       OEI-01-90-02330, OEI-01-90-02331, and OEI-01-90-02332
TO

            Bryan B. Ltitchell
            Principal Deputy Inspector General

                                                                                                       .
                       We have rcvicwcci the three above-referenceci   reports   on perinatal    scnnce
            capacity of fedcr~y-findeci      Urban community health Ce-nters, mral cornmuni~               health
            centers, and all co~unity       health centers.

                   We agree bat tic icdcraily-funded community and migrant healthcenters
            (C~4HCs) plav an important role in national strategies to reduce infant mortality, and
            that Nledicaid “rcunburscmcnt and strong relationships between C/MHCS and s~~c
            Medicaid programs are essential. In fac~ beause of our stiong belief in this objective,
            we aiready have a varlc~ of actions underway in concefi witi the Health Resources
            and Setices A~inis~aLOn      and with the A&tant Secretav for planning and
            Evaluation (ASPE) to address better program coordination.     L)vlanyof these activities
            ~0 beyond the Icgal authorities mentioned in the OIG report-

                   Not all of the issues mentioned in the report relate toprogramcoordination.A
            number of tic issues need to bc addressed directly by the Public ~ealti Senice (PHS)
            and the QMI-Ics, such as Staffing   and spaceneeds.

                         because of the delay in collecting information
                    Partly                                                and incorporating  those
            data JDIOt.hc OIG rCPo~ ~nd, partly as a result of the methodology used as the basis
            [or the recommendations   in the repoz we bebe~”e the OIG overlooked a broad Variety
            of steps the Dcpar~cnt   IS taking to address the chief concerns identified in the
             reports. [n addition,     the reports fail to recognize the elements of the President’s
             Hcaiti Care Reform        plan that are responsive, albeit on a broader bask, to some of the
             issues raked     in the audits. Limits on malpractice insurance are one exampie of Such
             an eIemen L




                                                             C-6
      Conscquentl}’,   ~vcdo notsupport the recommendation for a new initiative on
the part of the Dcp”2~cnt lnvol~ting ASpE, pHS and HCFA to address these
concerns since wc hcllcve hat such a recommendation duphcates efforts that are
aircadv under \vav. ~ese ~~ent cffo~ are a comb~ation of HCFA’S Medicaid
innovations dea~g w~~ OuVcach, s~etied           e~gibfi~ dete~tiations. new
reimbursement approaches, special HCFA-PHS cooper~~e efforts, and special
responses to tie Secrew’s    progr~   ~xtiatives w~ic~ are ~e~g conducted under the
overnight of ASPE.        -

       ~ttacbed foryourconsiderationareour detaded comments. Thank you for the
opportunl~ to review and comment on these draft reports. please advise us ~ you
agree ~~~ our position on he repom’ reco~endations      at your earfimt convenience.

Attachment
       ~’omrncnts of [hc Heaith Care Financ]ng Administration      (HCF4]
              on ~(flcc of Inspector C~cnerai (OIG’) Draft Repo~
                       on the Pcrlnntal Semcc Capacity of the
                   Federnil\’ F-tlncicd Communltv Health Centers
           0EI-fil-(jO-~12330. 0[31- 01-90-02331, and OEI-01-90-02332



OIG   Rccommcndation

The Assistant Secrctaw for Health, the Admkkrator        of tie Heal~ Care
Financing Administration, and the Assistant Secretary    for Planning and
Evaluation    should develop a plan of action to address the key areas outlined
above.

HCFA Response

~~e be~icve that OIG has ldcnt]ficd pertinent problems that community and
migrant heaith centers i CNHC)     face when delivering perinatil care to low
Income. high risk women.   However, since I-ICFA and the Public Health
ScWIcc (PfiS) arc already l~orking together to resolve many of these issues,
we cannot commit to dc~’cioping a new initiative which may duplicate or delay
ongoing    efforts.   The following     arc activities already undemay:

      o       Under the Deparment’s    Interagenm Committee      on
              Infant Nlortaliw (on which the Assistant Secretary for
              Planning and Evaiuatlon (ASPE) is also represented),
              the Directors of HCFA’S ,Medicaid Bureau and PHS’S
              Bureau of Health Care Delivery and Assistance co-chair
              an ACCCSS\J’ork Group.    Its agenda includes streamlined
              eligibility   and outstatloning   eligibility workers   at
              C/MHCs.

      o	      HCF:\    has an ]ntcragcnc~ agreement with the Health Resources
              and Scmlccs ,\dmlnl;tratlon-concerning     federally qualified health
              centers (FQHCs’) (I.e.,   [cderallv-finded C/MHCs).     Reguiar
              meetings nrc held to plan and assess progress in achieving mutuai
              perlnatai care stratcglcs and Medicaid coordinated     care initiatives.

      0	      The Secrcum”s.       “Program Directions’, monitored by ASPE. inciude
              several primary and pcrlnatai       care Initiatives    involving   C/MHCS     and
               Jfedicald    c!cmcnts.

In summam,    Jvc bclic~e [hc reports do not adequately address               current   issues
and or dcpnrtrncn~l     plann]ng and implementation   initiatives.




                                                   c-s
Page 2

General   Comments

The following comments arc directed to the summary           repofl: The PerinataI
Service Capaci~ of the Federally Funded Community            Health centers
(OEI-01-90-02332).

1.	   Discussions on pages v, 10, and 16 imply that little is being done about
      outstationed eligibility workers. In contras~ the National Governors’
      Asoaation    1992 repor~ Outstationin p Medicaid Eli~ibiliN Workers at
      ~           sQted* “~ost of the s~dY c~Hcs        repofl that oufi~tioning
      also has improved the centers’ fiscal condition, at least as it pertains to
      the delivery of perinat.al sewices . . . . In general, the s~dy C~HCS are
      very satisfied with their outstationing arrangements . . . .“

      Discussions on pages v, 10, and 16 imply that only half the States have
      implemented the FQHC reimbursement provisions. All States are
      implementing the provisions, and ail but one State plan amendment has
      been approved.

2.	   The following    commen~   relate   to the Key Areas    for Action on pages iv
      and v:

      o     Addressthes(affin~
                            needsofcenters
                                         ­
OIG did not consider                the
            five-point plan in the President’s    budget which calls for e~anding
            C/MHCs and increasing funding        for the Nationai Health Senice
            corps.

            In addition, States set credentiaiing criteria. The Federai

            government does not play a large role in this area.


      o     Relieve the centers of the hi~h cost of medicai malpractice

            insurance - The h]gh cost of malpractice insurance affects the entire

            health care system: ongoing studies have shown that C/MHCs are

            particularly affected by this problem. while immediate fixes may

            bring temporary relief, we believe that C/MHCs would be better

            sewed by a long-tcnn solution to our medical liability crisis. The

            President has addressed the issue of heaith care liability in his

            proposai for CamprchensiVe heaith reform and in subsequent draft

            legislation submitted to Congress on Juiy 2.





                                              c-9
Page 3

      0	    Improve the tics between the centers and the Medicaid pro~ram -
            A modci auuiica~on form for Maternal and Child Assistance
            Programs     &s dcveioped by the Administration for Children and
            Famdies.     HCFA, PHS, and the Food and Nutrition Sefice of the
            Department of Agriculture, and was published in the Federal
            Register on December 9, 1991.

            Also, tic Medicaid program already gives States the option to use a
            shortened application form, implement an expedited eligibility
            program for women and children, and outstation eligibility workers.

                In addition, HCFA is working closely with PHS to implement the
                FQHC mandate. HCFA has distributed lists of FQHCS tO the
                States, and issued policy
                                        and retiew guidelines.

      o	        Stren~then relationships be~een the centers and other heakh and
                soclai sewce prowders In the communi~ - HCFA beiieves that
                coordinated care is the best route to increasing access to providers.
                HCFA is aiready working with PHS on how to best integrate
                FQHCS   into coordinated   care ne~orks.

                In addition, the Omnibus Budget and Reconciliation     Act of 1989
                requires States to raise Medicaid obstetric/pediatric paymenfi to
                ensure that access to services by Medicaid recipients is comparable
                to the general population in the same area. This mandate should
                have the effect of strengthening the relationships between the
                centers
  and individual providers in their community.

3.	    ~-               Although the reports address financing and Medicaid
       issues, no intewiewswere held with officials in State Medicaid agencies
       or central and regional offices of HCFA. Based on these incomplete
       data. we suggest that OIG include a Medicaid-related   discussion in the
       report     and arrange   an Information   gathering   conference   with HCFA.




                                                 c-lo
                          APPENDIX                  D

                                      NOTES

1.   National Center for Health Statistics (NCHS), 1992. The 1989 U.S. infant
     mortality rate was 9.8 deaths per 1,000 live births. The provisional rate for
     1990 is 9.1 deaths per 1,000; and the provisional rate for 1991 is 8.9 per 1,000.
     These rates represent considerable improvement over the 1950 rate of 29.2, but
     the pace of improvement has slowed in recent years and has not been
     experienced equally by all segments of the population. According to the most
     recently published international data, the 1988 U.S. infant mortality rate for
     whites alone places the nation 17th lowest in the world, while the rate for
     blacks alone places it 36th. Native Americans and Puerto Ricans also have
     infant mortality rates considerably higher than the national average.

2.   U.S. Public Health Service (PHS), Healthy People 2(900: National Health
     Promotion and Dhease Prevention Objectives, Washington, D.C., 1990, p. 366.

     PHS, Caring for Our Future: 7%e Content of Prenatal Care: A Repo~ of the
     PHS Expert Panel on the Content of Prenatal Care, Washington, D. C., 1989, p. 2.

3.   Sarah S. Brown, editor: Institute of Medicine, Prenatal Care: Reaching Mothen
     Reaching Infants, National Academy Press, Washington, D. C., 1988, p. 4.

4.   Deborah Lewis- Idema, Increasing Provider Participation, National Governors’
     Association, Washington, D. C., 1988, pp 20-23. An increasing number of
     physicians who practice obstetrics are unwilling to accept low-income or
     Medicaid-insured patients because of high malpractice premiums and low
     Medicaid reimbursement rates.

     In September 1990, the American College of Obstetricians and Gynecologists
     (ACOG) reported that, as a result of the risk of malpractice, 12 percent of its
     members had discontinued their obstetric practices, 24 percent had reduced or
     eliminated services to high-risk women, and 10 percent had decreased the
     number of deliveries they performed. Average obstetric premiums rose 248
     percent between 1982 and 1989. (ACOG, prepared by Opinion Research
     Corporation, “Professional Liability and Its Effects: Report of a 1990 Survey of
     ACOG’s Membership,” Washington, D.C., September 1990.) The ACOG
     repeated this sumey in September 1992, and found no statistically significant
     differences from the prior survey.

     In addition, as of 1987, 64 percent of family physicians who once provided
     obstetric semices had discontinued such care. (American Academy of Family
     Physicians, “Family Physicians and Obstetrics: A Professional Liability Study,”
     1987.)


                                        D-1
5.     NCHS, “Advance Report on Final Natality Statistics, 1989,” Monthly Htal
       Statistics Repoti, vol. 40, no. 8, Supplement, December 12, 1991, p. 43. These
       1989 data are the most current available.

       Alan Guttmacher Institute, Prenatal Care in the United States, New York, N.Y.,
       1987, vol. I, p. vi. Adequacy of care is a function of time of entrance into care
       and number of visits. During the period 1984-86, 24 percent of women entered
       care after the first trimester, 24 percent had fewer than 9 visits, and 34 percent
       received less than adequate care.

6.     Alice Sardell, 771eU.S. Experiment in Social Medicine: l%e Community Health
       Center Program, 1965-1986, University of Pittsburgh Press, Pittsburgh, P& 1988,
       p. 66.

‘7.    Bonnie Lefkowit~ Bureau of Primary Health Care (BPHC), PHS, “The
       Institutionalization of Community Health Centers,” speech to the American
       Public Health Association, November 13, 1983, p. 4. This number represents
       consolidation as well as elimination of grantees.

8.     All of these centers received Section-330 community health center grants.
       Some also received Section-329 funds for care provided to migrant workers; an
       additional 71 centers received only Section-329 funding.

9.     Through the National Health Service Corps (NHSC), PHS offers scholarships
       and loan repayment to health providers who commit to work in designated
       Health Professional Shortage Areas for a given period. A large percentage of
       corps providers have traditionally worked in community health centers. After
       substantial cuts in program size in the early 1980’s, the NHSC received
       increased funding in 1990; the number of loan repayment candidates is limited,
       however, and most scholarship recipients will not be available for service until
       the mid-1990’s.

 10.   The Department of Agriculture provides vouchers through this program to
       address the nutritional needs of pregnant and lactating women and their
       infants.

 11.   The Rural Health Clinic Services Act of 1977 provides cost-related Medicaid
       reimbursement for semices at rural centers in Health Professional Shortage
       Areas or Medically Underserved Areas. Qualifying centers must be staffed by
       at least one certified nurse midwife, nurse practitioner, or physician assistant,
       whose practice must be within the scope of State law and regulation. Prior to
       passage of this act, these providers were not eligible for Medicaid
       reimbursement in some States. Because of problems with regulation,
       certification, and reimbursement, however, far fewer centers than expected had
       availed themselves of reimbursement under the act.




                                           D-2
12.    Section 330 funding was $435 million in FY 1989, $457 million in FY 1990, and
       $478 million in FY 1991 (Health Resources and Sexvices Administration
       (HRSA) FY 1993 Justification of Appropriations, vol. 1, p. 63.)

       Section 330 funding for FY 1992 was $532 million. The FY 1993 appropriation
       is $559 million. (BPHC and the Assistant Secretary for Management and
       Budget [ASMB].)

13.    Congress has provided for: (1) expanded eligibility: States are now mandated
       to extend coverage to all pregnant women below 133 percent of the Federal
       poverty level, and have the option of extending coverage to women between
       133 and 185 percent of the poverty level; (2) continuous eligiii.lity eligibility
       for coverage is now guaranteed throughout pregnancy and the postpartum
       period, regardless of income changes; (3) presumptive eligibility States have
       the option of granting temporary coverage based solely on self-reported
       income; (4) expanded coverage: case management services are now
       reimbursable; and (5) outstationing   States must place eligibility workers at
       locations other than AFDC enrollment sites, including CHCS.

14.    CPCP funding was $30 million in FY 1990 and $33 million in FY 1991. (HRSA
       FY 1993 Justification of Appropriations, vol. 1.)

       In fiscal years 1992 and 1993, $44.7 million was appropriated    for the CPCP.
       (BPHC and ASMB data.)

       Eighty percent of urban and 51 percent of rural centers that responded to our
       survey and offered perinatal services had received CPCP funding at some point
       during the 1988-1991 period.

15.    The HHS Office of Inspector General (OIG) has addressed the issue of
       perinatal care for underserved women in several prior studies: Medicaid
       Expansions for Prenatal Care: State and Local Implementation
       (OEI-06-90-O0160), January 1992; Comprehensive Perinatal Care Program
       (OEI-01-90-00460), November 1990; Access to Medicaid-Covered Prenatal Care
       (OE1-06-90-00162), October 1990; Evaluation of the Boston Healthy Baby
       Program (OAI-01-88-01420), July 1989; and Local Management and
       Implementation Strategies to Reduce Infant Mortality (OA1-01-88-01420), July
       1989.

 16.   Our sumey inquired about the provision of a representative range of perinatal
       medical and health-promotion services: ultrasound, amniocentesis, genetic
       counseling, non-stress testing, dental care, nutritional services, health education,
       childbirth classes. parenting/infant-care classes, family planning,
       smoking-cessation programs, substance-abuse treatment, and HIV
       counseling/testing. Our survey also inquired about the provision of four ancillary




                                           D-3
        services that facilitate access to care: translation, transportation,   home visiting,
        and child care during appointments.

17.	    Some centers completed enrollment on site. Other centers only began the
        enrollment process at the center and applicants had to complete it at the
        appropriate State offices. In some instances, centers completed all nutritional
        assessment and WIC paperwork on site, but clients had to obtain vouchers at a
        different location.

18.     Bureau’s Common Reporting Requirements           (BCRR) Database, BPHC, PHS.

        This database contains self-reported financial and caseload data from Section
        330 grantees. We derived the percentage change in center revenues from data
        for those 146 urban centers that both responded to our sumey and provided
        financial data to BPHC through the BCRR form for 1988 and 1990; and for
        214 rural centers that provided financial data to BPHC through the BCRR
        form for 1988 and 1990. Some of these rural centers did not respond to our
        survey.

        Total reported revenues for these 360 centers increased from $630 million in
        1988 to $803 million in 1990. Urban center revenues increased from $415
        million to $544 million; rural center revenues increased from $215 million to
        $259 million.

        PHS Section 330 grants increased from $258 million in 1988 to $305 million in
        1990. Urban centers received $163 million in 1988 and $193 million in 1990,
        while rural centers received $95 million and $113 million.

        Medicaid reimbursements to these centers increased from $107 million in 1988
        to $167 million in 1990. At urban centers, Medicaid reimbursements increased
        from $84 million to $134 million. At rural centers, reimbursements increased
        from $23 million to $33 million.

        These centers received additional revenues from:       Maternal and Child Health
        block grants, PHS Section 329 and 340 grants for       migrant workers and the
        homeless, WIC grants, Title X grants, Title XVIII      Medicare payments, Title
        XX payments, other third party payments, patient       collections, State and local
        revenues, and donations.

 19.	    We excluded these 62 centers from the calculations of the statistics presented in
         the body of this report (see appendix A for detailed methodology).

 20.     PHS, Caring for Our Future, p. 2.

         H-IS, Healthy People 2000, p. 366.




                                              D-4

      In our survey, we used the terms “health education” for “health promotion” and
      “social services” for “psychosocial services.”

21.   BPHC, PHS, “Program Expectations,” (hereafter P.E.), May 1, 1991, p. 21.
      This document outlines both requirements of law and regulation and
      Departmental priorities for the centers.

      BPHC, PHS, “Regional Program Guidance Memorandum            84-52,” May 15, 1984.

22.   NCHS, 1992. These 1989 data are the most current available.   The average of
      62.2 percent for minority women was calculated from rates for Mexican
      American, Puerto Rican, Cuban, Central and South American, other Hispanic,
      Chinese, Japanese, Filipino, Hawaiian, other Asian, American Indian/Alaskan
      Native, and Black women.

      The BPHC provided the rate for women in federally designated      Healthy Start
      project areas. The BPHC calculated this rate from information reported by the
      15 projects for a time period between 1984 and 1989. The project areas are:
      Aberdeen, South Dakota (rates are for the Northern Plains Native American
      populations in North Dakota, South Dakota, and Nebraska); Baltimore,
      Maryland; Birmingham, Alabama; Boston, Massachusetts;      Chicago, Illinois;
      Cleveland, Ohio; Detroit, Michigan; Lake County, Indiana; New orleans,
      Louisiana; New York, New York; Oakland, California; the Pee Dee region,
      South Carolina; Philadelphia, Pennsylvania; Pittsburgh, Pennsylvania; and
      Washington, D.C.

23.   PHS, Healthy People 2000, p. 381.

24.   ACOG, Standards for Obstetric-Gynecologi”cal Services, 7th cd., Washington,
      D. C., 1989, p. 16.

      The PHS has required that “all centers, regardless of size, must assure that the
      services that they deliver conform to the Sfandards for Obsle&ic-Gynecologz”c
      Services” (“Perinatal Care: How to Establish Perinatal Services in Community
      Health Centers,” PHS, 1985, p. 96).

       A 1989 PI-IS report, Caringfor Our Future: Tile Content of Prenatal Care,
       suggests slightly different guidelines. This report recommends that healthy
       women receive a minimum of nine prenatal visits during a first pregnancy and
       seven prenatal visits during subsequent pregnancies (p. 50). The report
       suggests that women at risk, because of either psychosocial or physical factors,
       might require more prenatal visits (p. 71). Psychosocial and physical risk
       factors include: inadequate personal support systems, single marital status,
       adolescence, advanced age, high stress and anxiety, less than high school
       education, low income, inadequate housing, inadequate nutritional resources,
       communication barriers, smoking, alcohol abuse, and illicit drug use (p. 79).



                                          D-5
25.    In reporting responses to survey questions that solicited information on a scale,
       we have combined responses of “moderately” and “substantially” and have
       reported   them as “seriously” or “serious.”

26.    Nonresponses   may have resulted     in an underestimate   of the percentage   of
       centers with such vacancies.

27.    See note 9.

28.    A substantial increase in commercial medical liability insurance rates and
       cutbacks in the National Health Service Corps program have resulted in
       dramatically increased expenditures on medical liability coverage for the
       centers.

       According to the U.S. General Accounting Office, insurance premiums in 1990
       amounted to an estimated 10 percent of the centers’ total Federal grant
       funding--or 4.4 percent of center revenues (Medical Malpractice: Data on
       Claims Needed to Evaluate Health Centers) Insurance Alternatives, I-IRD-91-98,
       Washington, D.C., May 1991, p. l.).

29.    P.L. 102-501. Under the ITC&        center providers will be defended by the
       Justice Department    in any medical malpractice litigation, and judgments will be
       paid out of a Justice Department      fund, into which the centers will pay annual
       contributions. This liability protection will be provided for three years, after
       which time the financial benefits of the arrangement      will be assessed.

 30.   P. E., pp. 4-5.

 31.    our survey questions addressed only admitting privileges. During interviews,
        center staff reported hospital restrictions on the delivery privileges of certified
        nurse midwives and family physicians.

 32.    See note 18.

 33.    The Omnibus Budget Reconciliation Act of 1990 mandated that States locate
        eligibility workers at sites other than AFDC enrollment sites, including CHCS,
        by July 1991.

 34.    Bonnie Lefkowitz, BPHC, PHS, written communication           to OIG, December 24,
        1991.

        In addition, only 26 States had adopted presumptive eligibility as of June 1991
        (Medicaid Expansions for Rrenatal Care: State and Local Implementation,
        appendix E).

        According to the OIG report, Medicaid Expansions for Prenatal Care: An




                                              D-6
       Updale (OEI-06-90-O0161), three States still used an asset test to determine
       Medicaid eligibility as of January 1992.

35.    According to an internal BPHC draft report, “CPCP 1990 Data Report:
       Moving Ahead,” CPCP-funded       centers served 33,938 pregnant teens in 1990,
       which they report is more than triple the number sexved in 1988. AlSO
       according to this report, in 1989, CPCP-funded    centers provided setices to
       13.4 percent of all pregnant teens age 15 or younger in the United States.
       BPHC’S CPCP data, however, does not permit a comparison of CPCP-funded
       centers and other centers.

36.    Unless otherwise noted, the differences between groups (for example, CPCP-
       funded centers and other centers) cited in this report are statistically significant
       at the .05 level.

37.    BPHC, PHS, “Supplemental    Grants for the Development of a Comprehensive
       Perinatal Care Program in Community and Migrant Health Centers,
       Application Guidance,” undated document, p. 9.

38.    BPHC,   PHS, “Supplemental     Grants,” p. 1.

39.    Of those centers that did participate in consortia, a larger percentage of CPCP
       grant recipients than of other centers reported collaboration with schools,
       hospitals, private-practice physicians, government social-semice agencies, and
       nonprofit organizations.

40.    BPHC, PHS, “Supplemental       Grants,” p. 9.

41.    We did not calculate the statistical significance of the difference between
       urban and rural center revenues.     For more information on center
       revenues, see note 18.

42.    The difference between the percentage of urban centers and the percentage of
       rural centers that reported medical staff shortages as a serious limitation to the
       provision of perinatal setices was statistically significant at the .1 level.

       Additionally, the difference between the 1 percent decrease in FTE provider
       staff at rural centers and the 12 percent increase in FTE provider staff at urban
       centers is statistically significant at the .1 level.

 43.    PHS, Seventh Report to the President and Congress on the Status of Health
        Penonnel in the United States, March 1990.

       Robert M. Politzer, Donna L. Harris, Marilyn H. Gaston, and Fitzhugh Mullan,
       “Primary Care Physician Supply and the Medically Undersexed,”      Journal of the
       American Medical Association, July 3, 1991, vol. 266, no. 1, pp. 104-109.




                                            D-7
      John E. Verby, J. Paul Newell, Susan A. Andersen, and Walter M. Swentko,
      “Changing the Medical School Curriculum to Improve Patient Access to
      Primary Care,” Journal of the American Medical Association, July 3, 1991,
      vol. 266, nO. 1, p. 110-113.

44.   P.L. 102-501.

45.   See the OIG reports, Access to Medicaid-Covered Prenatal Care (OEI-06-90-
      00162), October 1990, and Medicaid Expansions for Prenatal Care: State and
      Local Implementation (OE1-06-90-00160), January 1992.

46.   For an analysis of one city’s experience, see OIG reports Evaluation of the
      Boston Healthy Baby Program (OE1-01-88-01420), July 1989, and Local
      Management and Implementation Stratep”esto Reduce Infant Mortality
      (OEI-01-88-01420), July 1989.

47.   For a description of various State approaches to reducing Medicaid’s
      administrative burden on physicians, see the OIG report, Medicaid Hassle:
      S/a/e Responses to Physician Complaints (OEI-O1-92-OO1OO),March 1992.

48.   Sara Rosenbaum and Marilynn Sager, “Unlocking the Hospital Doors: Medical
      Staff Membership and Physicians Who Serve the Poor,” Yale Law & Policy
      Review, vol. 9, no. 1 (1991).




                                         D-8
